<html>
<title> - NASA FY 2008 BUDGET</title>
<body><pre>[Senate Hearing 110-49]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 110-49
 
                          NASA FY 2008 BUDGET

=======================================================================

                                HEARING

                               before the

        SUBCOMMITTEE ON SPACE, AERONAUTICS, AND RELATED SCIENCES

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 28, 2007

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                    U.S. GOVERNMENT PRINTING OFFICE
34-851                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

       0SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                   DANIEL K. INOUYE, Hawaii, Chairman
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska, Vice Chairman
    Virginia                         JOHN McCAIN, Arizona
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 GORDON H. SMITH, Oregon
MARIA CANTWELL, Washington           JOHN ENSIGN, Nevada
FRANK R. LAUTENBERG, New Jersey      JOHN E. SUNUNU, New Hampshire
MARK PRYOR, Arkansas                 JIM DeMINT, South Carolina
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
CLAIRE McCASKILL, Missouri           JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
Lila Harper Helms, Democratic Deputy Staff Director and Policy Director
              Margaret Spring, Democratic General Counsel
             Lisa J. Sutherland, Republican Staff Director
          Christine D. Kurth, Republican Deputy Staff Director
             Kenneth R. Nahigian, Republican Chief Counsel
                                 ------                                

        SUBCOMMITTEE ON SPACE, AERONAUTICS, AND RELATED SCIENCES

BILL NELSON, Florida, Chairman       KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        TRENT LOTT, Mississippi
MARK PRYOR, Arkansas                 JOHN E. SUNUNU, New Hampshire


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 28, 2007................................     1
Statement of Senator Dorgan......................................    23
Statement of Senator Hutchison...................................     3
    Prepared statement...........................................     4
Statement of Senator Nelson......................................     1
    Prepared statement...........................................     2
Statement of Senator Stevens.....................................     5
    Prepared statement...........................................     5

                               Witnesses

Griffin, Dr. Michael D., Administrator, NASA.....................     6
    Prepared statement...........................................     8

                                Appendix

Inouye, Hon. Daniel K., U.S. Senator from Hawaii, prepared 
  statement......................................................    41


                          NASA FY 2008 BUDGET

                              ----------                              


                      WEDNESDAY, FEBRUARY 28, 2007

                               U.S. Senate,
   Subcommittee on Space, Aeronautics, and Related 
                                          Sciences,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:36 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Bill Nelson, 
Chairman of the Subcommittee, presiding.

            OPENING STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Well, good afternoon. It's been a long time 
since I chaired one of these Space Subcommittee hearings. I was 
Chairman from 1985 to 1990 of the Space Subcommittee of the 
House of Representatives. There are actually a few faces out 
there in the audience that were around at that time. So, thank 
you all for hanging in there.
    I want to take the occasion of introducing you all to our 
Shuttle crew that flew in December, Commander Mark Polansky and 
Mission Specialists Robert Curbeam, Joan Higginbotham, Nicholas 
Patrick, and Christer Fuglesang. They had a terrific mission 
so, let's all welcome them to Washington.
    [Applause.]
    Senator Nelson. You all do us proud. And, oh, boy, every 
time I see that Shuttle come back--it's just amazing, Mark, how 
you can just put it on a dime, and you don't have an engine. 
The only correction you have is in that vertical stabilizer, 
where you've got that speed brake. Other than that, it's your 
pure native talent that puts it down. And folks like Mark put 
it on a dime every time, coming back from a point way out in 
space. So, thank you for your expertise. Thank all of you for 
coming and visiting with us today.
    We welcome Dr. Griffin. Senator Hutchison will be here 
momentarily. What I'd like you to do, Dr. Griffin, rather than 
hold up, I'd like us to go on. We're going to put your written 
testimony into the record.
    Oh, here is Senator Hutchison.
    What I'd like you to do, instead of reading your testimony, 
just talk to us, like you would when you come in to visit us in 
the office. Then we'll get into a dialogue in Q&A, later on.
    So, Dr. Griffin, thank you for the leadership that you are 
offering, and for how you have turned the agency around. Thank 
you for tackling tough issues, like Hubble, and how you put 10 
pounds of potatoes into a 5-pound sack. Thank you for the team 
that you're leading, which included a Nobel winner this year, 
Dr. John Mather, who won the Nobel Prize in Physics. And thank 
you for getting us back into space, and doing it not once now 
but twice, with human missions.
    If the crew would like to sit up here at the Committee 
table, please. No, come on up here. Look, I'm running the show. 
I have the authority to do this now.
    [Laughter.]
    Dr. Griffin. Well, and for my part, I'm happy to let Roman 
do the hearing, too.
    [Laughter.]
    Senator Nelson. Well, he may be gone by that time.
    Thank you, also, Dr. Griffin, as you try to keep that gap 
narrowed between the time that we have to shut down the Space 
Shuttle and when we fly the new Crew Exploration Vehicle. Thank 
you, also, in an uncertain budget year, where we haven't had 
budgets submitted by the White House that have matched with the 
authorization. We didn't even pass an appropriations bill last 
year. They went to something known as a continuing resolution 
or CR. And, thanks to Senator Hutchison and to Senator Barbara 
Mikulski, they had added another billion dollars, over and 
above the White House request, in the bill that was passed out 
of the Senate Appropriations Committee. And then, at the end of 
the year last year, we never could get the leadership to agree 
to take up the appropriations bill, so they did this pared-down 
thing, called a Continuing Resolution, and that just adds to 
your headaches.
    We're looking forward to having your testimony. Again, your 
statement will be put in the record. If you will just talk 
informally with us, I would appreciate it.
    [The prepared statement of Senator Nelson follows:]

   Prepared Statement of Hon. Bill Nelson, U.S. Senator from Florida

    Good afternoon and welcome to this hearing on NASA's 2008 budget 
request. We welcome as our witness today NASA's Administrator, Dr. 
Michael Griffin, and extend a special welcome to the crew of STS-116 
who are here visiting this afternoon. In December, Commander Mark 
Polansky and Mission Specialists Robert Curbeam, Joan Higginbotham, 
Nicholas Patrick, and Christer Fuglesang successfully completed the 
latest construction mission to the International Space Station. This 
crew conducted four spacewalks and installed the Station's permanent 
power system. Congratulations on your success and thank you for being 
here today.
    Since the last time we gathered to hear from Dr. Griffin in this 
forum, NASA has safely flown three Shuttle missions, bringing the 
International Space Station to 60 percent complete and restoring 
America's confidence in the Space Shuttle Program. NASA has 
successfully launched five science missions that will lead to better 
understanding of our home planet, our solar system, and the universe 
beyond. A NASA scientist, Dr. John Mather, was awarded the Nobel Prize 
in Physics this year, and the transition is underway to replace the 
Shuttle with the Orion Crew Exploration Vehicle and Ares Crew Launch 
Vehicle.
    With the successes of the past year in mind, we are also aware of 
the challenges NASA faces in the future. First, it must safely complete 
the International Space Station and the remaining Shuttle flights. NASA 
must develop a new vehicle to take humans to the Space Station, the 
moon, and beyond--and do so with the shortest possible gap between the 
Shuttle and Orion/Ares programs. And, NASA must continue implementation 
of a balanced program of exploration, science, and aeronautics. This is 
an ambitious agenda that was accepted by this Committee and the 
Congress, in a bipartisan way, when we passed the NASA Authorization 
Act of 2005.
    However, in each year since, the White House has requested less 
funding for NASA than authorized by that Act. For that reason, and due 
to the continuing resolution for this fiscal year, NASA will receive 
$1.7 billion less than authorized in 2007. If the President's 2008 
budget is adopted, NASA will have received three billion dollars less 
than the amount planned under the two-year authorization Act. These 
shortfalls are in addition to the $2 billion that this little agency 
had to take from other programs to recover from the tragedy of the 
Columbia accident and return the Shuttle to flight. If we continue on 
the President's path, we face an extended period when the United States 
will have no human access to space. I say this is unacceptable--
especially at a time when other nations are aggressively developing 
space technology. Last month's reckless anti-satellite test by the 
Chinese reminds us that we cannot afford to remain Earth-bound while 
others pursue space capabilities with questionable intent.
    And so Dr. Griffin, we've invited you to tell us today about the 
challenges you face implementing NASA's program in this budget 
environment. We will also be looking into steps we in the Congress can 
take to help you meet some of those challenges, and I look forward to 
working with you to see if, together, we can find some helpful answers. 
Thank you for your presence here today, and I look forward to hearing 
your testimony.

    Senator Nelson. Senator Hutchison?

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Well, thank you, Mr. Chairman. And I am 
very glad that we are having this hearing.
    I will say, having been Chairman of this Subcommittee last 
year, and having Senator Nelson as the Ranking Member, that I 
can't see that there is one iota of difference in our goals for 
NASA. He was so helpful to me last year, and the year before 
that, in passing the reauthorization of NASA, which did, 
certainly, solidify our position that we wanted the Space 
Station to be finished, that we wanted good science to come out 
of the Space Station, and that we wanted a very small window--
in fact, Senator Nelson and I tried to make it ``no window''--
but, working with you, Dr. Griffin, we came up with a very 
small window for the time that we would not have a Shuttle and 
would not yet have the Crew Exploration Vehicle.
    But I think it is fair to say that Senator Nelson and I 
will continue to work in tandem to try to assure that that 
window is very small, which I know you agree with, but the 
budget is an issue.
    So, I want to have the designation of the Space Station as 
the National Lab mean something. I think it is a very 
important, creative way for us to add funds to that scientific 
base of the Space Station. And I think that we are going to 
work with Senator Stevens and Senator Inouye, who are also very 
strong supporters of NASA, and Senator Mikulski, who has been a 
champion, to try to increase the funding that we see, either in 
the supplemental or in this 2008 budget.
    The 2008 budget looks very strong, a 3.1 percent increase, 
but when you look at what happened last year with the flat 
funding, it still leaves us short of being able to achieve the 
goals that we have, which are ``no window'' and humans being 
able to go into space, and also real science being able to be 
done on the Space Station, which means finishing it properly.
    I visited with the crew earlier, and was so impressed with 
the job they did of configuring the Space Station, and trying 
to make sure that it is going to be viable and have everything 
that we can have working on it. So, we're glad that you're here 
and that we have an international component to the team. And, 
as I said to you earlier today, Senator Nelson and I are a 
bipartisan team. We have the Chairman and Ranking Member of the 
full Committee also in absolute sync that we want NASA to be 
the great treasure that it has been to our country in 
innovation, in defense leadership, security leadership, and 
also we want to make sure that it can support the scientific 
achievements that can keep the quality of life in our country 
and our world on the continuing rise.
    So, thank you for what you're doing. We've certainly 
visited a number of times, and I hope that we will continue to 
be able to fund you, and that you will continue to be able to 
have the means to accomplish the priorities that we share. 
Thank you.
    Thank you.
    [The prepared statement of Senator Hutchison follows:]

  Prepared Statement of Hon. Kay Bailey Hutchison, U.S. Senator from 
                                 Texas

    Thank you, Mr. Chairman, for beginning the hearings under your 
leadership with this important discussion of NASA's FY 2008 budget 
request. I have always enjoyed our very strong and bipartisan working 
relationship, and look forward to working with you and your staff as we 
move forward with the work of the Subcommittee.
    I also join you in welcoming the STS-116 crew to our hearing room 
today. I had the opportunity to visit with them briefly in my office 
earlier today, and, as always, am impressed with their enthusiasm and 
dedication to their missions and the vital and important role of human 
spaceflight and exploration.
    This crew performed an extremely complex mission--perhaps the most 
complex one to date--and did it successfully and made it look easy. 
They literally began the process of bringing the backbone of the Space 
Station to life in preparation for the great promise of scientific 
research that lies ahead.
    Thank you, Dr. Griffin. for joining us today to outline the 
President's FY 2008 budget request for NASA.
    On the face of it, the request is a good budget, with a 3.1 percent 
increase over what had been requested for FY 2007.
    However, as we all know, NASA did not receive the amount it 
requested in FY 2007--in fact, it has been, for all intents and 
purposes, held flat in FY 2007 with an appropriations level based on 
the amount it received in FY 2006.
    That outcome, of course, was not known when this budget request was 
developed. The result is, however, that this budget request, in the 
context of the FY 2007 Continuing Resolution, is not an adequate budget 
and will not, by itself, allow NASA to move forward effectively with 
its plans for the future.
    A little over a year ago, the Congress passed legislation, authored 
by this Subcommittee, authorizing NASA funding for FY 2007 and 2008. 
For FY 2007, we authorized $17.9 billion; for FY 2008, we authorized 
$18.7 billion. The amount appropriated for FY 2007 was $16.2 billion; 
the amount requested for FY 2008 is $17.3 billion. A combined total of 
$3.1 billion less for those 2 years than we authorized.
    As you know, Mr. Chairman, we did not pick those authorization 
numbers out of a hat. We--and our House counterparts--determined those 
were the appropriate numbers to ensure a healthy and balanced NASA 
budget that could effectively meet the challenges it was facing then--
and continues to face now.
    I am disappointed that the appropriations for FY 2007 were so far 
below even the amount requested. I am equally disappointed that the 
White House has not seen fit to request amounts even close to what we 
authorized. I believe those decisions have forced Dr. Griffin to make 
the kinds of painful choices we are hearing about from the scientific 
community.
    I am further concerned that being forced to make those choices can 
have the effect of undermining the traditional constituency for NASA 
that is vital for this Nation to sustain an aggressive and viable space 
exploration program.
    What is also becoming more and more certain, as we look at the 
world around us, is that if the U.S. does not sustain an active space 
exploration program, other nations will--and are preparing to--step 
into that vacuum.
    The challenges are great, and the stakes are high, Mr. Chairman, 
and I look forward to working with you to find the right kinds of 
answers to meet them and keep our Nation at the forefront of space 
exploration.

    Senator Nelson. Senator Stevens, we're honored to have you 
here today.

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    Senator Stevens. Well, thank you very much. I would like to 
have my opening statement submitted.
    I'm delighted to see the members of the crew that are here. 
And we were very pleased to have an Alaskan, Commander Bill 
Oefelein as the Pilot of the recent mission.
    So, I don't want to prolong it. I'm here to hear Dr. 
Griffin and go on to another meeting. So, I appreciate your 
courtesy.
    [The prepared statement of Senator Stevens follows:]

    Prepared Statement of Hon. Ted Stevens, U.S. Senator from Alaska

    Thank you, Mr. Chairman, for holding this important hearing on 
NASA's FY 2008 budget request. NASA has an important role to play in 
helping this Nation expand its technological edge and conducting 
exciting exploration into the heavens--and in better understanding our 
own Earth.
    I am also delighted to see some of the crew members of the most 
recent Space Shuttle mission--STS-116--join the Administrator briefly 
at this hearing, led by their Commander, Mark Polansky.
    Their mission was extremely successful and marked an important 
turning point in assembling the International Space Station by getting 
its permanent power system ready to receive the research laboratories 
of our international partners, and come closer to being the great 
scientific laboratory we have always intended it to be.
    Of course, I am always pleased when an Alaskan native is able to 
play a key role in a mission, as did Astronaut and Navy Commander Bill 
Oefelein, the Pilot for this mission, who is from Anchorage. I am sorry 
that he had a scheduling conflict and could not be here with you today, 
but I want to congratulate all of you on your fine service and 
dedication to space exploration.
    The NASA budget request reflects the continued support of the 
Administration for NASA. In a very constrained budget, the President 
has recommended a little over 3 percent increase over what was 
requested for FY 2007.
    As it happened, the amount appropriated in the year-long Continuing 
Resolution did not get approved, and so there will have to be some 
adjustments to the request, which I understand Dr. Griffin will be 
providing to the Congress in the near future.
    I believe we need a strong commitment to NASA and its programs, and 
I hope we can find the best means of providing the resources to allow 
the agency to carry out all its objectives.
    One area I am especially interested in is the research NASA is 
doing to help us understand the question of the causes and effects of 
global climate change.
    This is an area of particular interest to Alaska, where we feel the 
impacts of many environmental changes sooner than much of the rest of 
the world.
    There are complex relationships between such forces as ocean 
surface changes and temperature variations and air currents bringing 
warmer precipitation to places like Alaska, where the permafrost is 
affected, and causing increased release of methane gases, which in turn 
affects the ozone layer.
    We need to understand these forces, and I will be interested to 
hear how NASA's Earth Science programs can help increase that 
understanding.
    I look forward to your testimony, Dr. Griffin, and working with the 
Chairman and Ranking Member of this Subcommittee and the Chairman of 
the full Committee in charting a solid future for NASA.

    Senator Nelson. Yes, thank you, Senator Stevens.
    Dr. Griffin, one of the things that you might also comment 
on is this Chinese ASAT test that has put a huge debris field 
in space, which is probably--all of the debris that's up there, 
it's a huge percentage in addition, as a result of that ASAT 
test, and it's up there at about 500 miles, which means it's 
going to be a long time coming down. It is not only a threat to 
our meteorological and other satellites, but also a threat to 
the Space Station. So, at your pleasure, if you will share with 
us.

    STATEMENT OF DR. MICHAEL D. GRIFFIN, ADMINISTRATOR, NASA

    Dr. Griffin. Mr. Chairman, Ranking Member Hutchison, and 
Mr. Vice Chairman, Senator Stevens, thank you for being here. 
It's always a pleasure to appear before you.
    As you have all noted, we have goals in common. There is no 
difference between what you want and what we want. In fact, I 
ask your support, not really so much on behalf of NASA, but on 
behalf of the American space program and our mutual goal to be 
a leader in forging a spacefaring civilization. That is what we 
are about. That is what the vision is about.
    This year, above all years, we need your help. This is a 
Fiscal Year 2008 budget request. I can only say, at the 
outset--you've asked me not to read my statement; I won't. I 
will make a few points from it, if you don't mind, as if we 
were just talking in your office.
    We accept the will of the Congress on the Fiscal Year 2007 
continuing resolution, but it causes us a lot of pain. I will 
describe some of that. It is imperative that we have the full 
request for Fiscal Year 2008 if we are not to do great and 
lasting damage to the program. We need your help with that.
    In fact, this Committee demonstrated enormous leadership in 
crafting the 2005 Authorization Act which sets the course for 
NASA and our country to go out again beyond low Earth orbit, to 
explore the Moon, Mars, the near-Earth asteroids, and to learn 
to utilize space for our benefit, building on the legacy of the 
International Space Station.
    Last year, the budget I brought you recognized the changes 
we had made since the earlier years; in particular, prior to 
the loss of Space Shuttle Columbia. This year's budget contains 
no surprises. It continues on exactly in the tradition that we 
laid out for the FY07 budget, which, unfortunately, was not 
passed. But if you studied that budget--and I know you did--you 
will see no surprises this year.
    Last year, we actually carried out, sir, three Shuttle 
missions, and the fourth since I assumed office. All of those 
have been very successful. We had a bit of difficulty returning 
the Shuttle to flight, dealing with external tank debris. I'm 
happy to report that we now have a much greater understanding 
of that problem than in the years before we lost Columbia, and 
our last three flights have been conducted with near-historic 
minimums of debris problems from the external tank.
    As you know, because you just introduced them, we have here 
most of the crew from our December mission. Up until yesterday, 
we were looking forward to the March launch of Shuttle 
Atlantis, with Rick Sturckow, Marine colonel, commanding. That 
launch will now likely be toward the end of April, at the 
opening of the next window, because we had a major hail storm 
in Florida. Senator, I'm surprised, being from Florida, that 
you've not managed to get a handle on those hail storms. But we 
had some damage to the tank, and we're going to have to roll 
back.
    By March 15th, I will present to this Committee, and, in 
fact, to the Congress, an operating plan outlining how we 
intend to cope with the reduction in the planned amount for 
Fiscal Year 2007. The reduction, I will tell you now, does not 
halt any planned work that we were going to do on the Crew 
Exploration Vehicle (CEV) or the Crew Launch Vehicle (CLV), the 
Orion and Ares. It does stretch it out. I know that you will 
want me to tell you how much of a stretch out. Our funding was 
extremely limited, as you know, coming in, and we were fighting 
to hold a renewed human spaceflight capability in 2014, the 
last year mandated by the President to do so. Regrettably, I am 
projecting a 4- to 6-month slip in our launch dates, our first 
launch date for the Orion and Ares, and I think we can expect 
them to slip into early 2015.
    We are working, as we speak, to prioritize all of our 
funding at NASA and to orient all of it that we can toward the 
replacement of the Shuttle. But I am afraid that I do not have 
good news for you in that regard, particularly with your 
concern for minimizing the gap in human spaceflight.
    We have deferred a great deal of the research on the 
International Space Station. If I have to prioritize, then I 
must prioritize completion of the International Space Station 
over utilization of the International Space Station. If I have 
to prioritize, I must prioritize access to the International 
Space Station over utilization of the International Space 
Station. So, we have deferred some research.
    Despite that, we are aggressively, Senator Hutchison, 
seeking cooperation with other government agencies and with 
industry for the utilization of the National Laboratory, the 
U.S. Laboratory, on the International Space Station. Progress 
in that arena was going quite well, actually, until we lost 
Columbia. As you might anticipate, it dried up substantially at 
that time. We are now undertaking a renewed effort to make full 
and complete use of the Station, but it will have to await 
other priorities that I spoke of.
    The biggest concern that I have is that we hold to the 
vision that was outlined in the months right after we lost 
Columbia. And here, sir, I would like to read a quote from the 
Columbia Accident Investigation Board (CAIB).
    The CAIB noted that ``the U.S. space effort has moved 
forward for more than 30 years without a guiding vision.'' I 
want to thank, explicitly, you, Senator Hutchison, Senator 
Stevens, for bringing your leadership to bear on this issue 
with our 2005 Authorization Act. It makes the law of the land 
exactly the right thing.
    The CAIB went on to observe, ``Because the Shuttle is now 
an aging system, but still developmental in character, it is in 
the Nation's interest to replace the Shuttle as soon as 
possible as the primary means for transporting humans to and 
from Earth orbit.'' Continuing on, quoting again, ``The 
previous attempts to develop a replacement vehicle for the 
aging Shuttle represent a failure of national leadership.''
    Finally, the Board noted that, ``This approach can only be 
successful if it is sustained over the decade, if, by the time 
a decision is made to develop a new vehicle, there is a clearer 
idea of how the new transportation fits into the Nation's 
overall plans for space, and if the U.S. Government is willing, 
at the time a development decision is made, to commit the 
resources required to implement it.''
    Now, you in this Congress and this President have removed 
the issues of lack of strategic vision. We have made a 
development decision based on an architecture. Our new crew 
vehicle fits into the larger architecture of human lunar return 
and later voyages to Mars. We have taken care of the major 
issues. We must take care now to sustain the commitment of 
resources necessary to finish the development, or we will fail 
to heed the lessons that were, I hope, learned in the aftermath 
of Columbia.
    I want to conclude by noting that human spaceflight is a 
strategic asset for our Nation. It should not again be risked 
as we risked it during the 6-year gap between the end of Apollo 
and the onset of Shuttle. We must have a safe and orderly 
transition, both for the expert manpower that sustains this 
effort and for the position of the United States as the 
preeminent spacefaring nation of the world. By the time we 
retire the Shuttle and resume flights with our Orion and Ares 
systems, several other nations will have joined us in space 
with their own capability. For the United States not to be 
among them is tragic.
    In our science portfolio, our request for Fiscal Year 2008 
is for five and a half billion dollars. It maintains a balanced 
approach to our portfolio of four basic areas: astrophysics, 
planetary science, Earth science, and heliophysics. In 
aeronautics, our FY08 budget puts forth a stable plan for the 
next 5 years, without major increases, and certainly no 
decreases, allowing us to capitalize on the strategic vision 
that we developed last year at the behest of this Congress, and 
which was honored by an executive order from the President. So, 
we now have a new aeronautic strategic plan. I hope that you 
will see, and this Congress will see, the value in this plan 
that I see. I look forward to implementing it.
    In closing, Chairman Nelson, I'd like to finish with a 
concern that I've raised in recent speeches. I think this 
concern needs a wider audience. I've reached the point where I 
believe that if NASA were to disappear tomorrow, if the space 
program were to disappear, if we never put another human into 
space, if we never put up another Hubble, never sent another 
spacecraft to another planet, Americans would be profoundly 
distraught. We would feel less than ourselves. We would feel 
that our best days were behind us, that our best days were 
consigned to the history books.
    As you know better than most, NASA's mission leverages a 
broader American way of life that speaks to the best in us and 
to the best for our position in the world. We need your help in 
sustaining it.
    We must not take for granted the leadership that we've had 
simply because our predecessors did great things. We must 
sustain the doing of great things, and I need your help in 
that.
    Thank you.
    [The prepared statement of Dr. Griffin follows:]

   Prepared Statement of Dr. Michael D. Griffin, Administrator, NASA

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to appear today to discuss the President's FY 2008 budget 
request for NASA. The President's FY 2008 budget request for NASA is 
$17.3 billion. This represents a 3.1 percent increase over the FY 2007 
request for the agency, but not the enacted FY 2007 appropriation. The 
FY 2008 budget request for NASA demonstrates the President's continued 
commitment to our Nation's leadership in space and aeronautics 
research, especially during a time when there are other competing 
demands for our Nation's resources. The FY 2008 budget request reflects 
a stable plan to continue investments begun in prior years, with some 
slight course corrections. Overall, I believe that we are heading in 
the right direction. We have made great strides this past year, and 
NASA is on track and making progress in carrying out the tasks before 
us.
    Before I outline the FY 2008 budget request for NASA any further, 
in the invitation to testify today you asked that I address current 
NASA plans for the use of FY 2007 funding. On February 15, 2007, the 
President signed into law a joint resolution stipulating FY 2007 
funding levels for NASA and other Federal agencies. This appropriation 
reduces overall funding for NASA by $545 million from the President's 
FY 2007 request. The FY 2008 budget request could not possibly factor 
the impact of such a funding reduction from FY 2007 appropriation for 
NASA's carefully-considered multi-year programs, and thus, several 
programs in the FY 2008 budget request will be impacted. The FY 2007 
appropriation further directs specific reductions to human spaceflight 
of $677 million--$577 million of that from Exploration Systems. This 
reduction may significantly impact our ability to safely and 
effectively transition from the Shuttle to the Orion Crew Exploration 
Vehicle and Ares I Crew Launch Vehicle. It will have serious effects on 
many people, projects, and programs this year, and for the longer term. 
As I noted during last year's Congressional hearings on NASA's FY 2007 
budget request, we have a carefully balanced set of priorities to 
execute on behalf of our Nation. So as a result of these funding 
reductions in FY 2007, NASA is carefully assessing the implications to 
overall Exploration priorities and milestones, and will present 
detailed impacts after a full analysis is complete. The initial NASA 
Operating Plan for FY 2007, which will be finalized by March 15, will 
reflect the impacts of these reductions and the requisite decisions. As 
always, we are here to carry out our Nation's civil space and 
aeronautics programs with the resources made available by the Congress. 
All of our programs proceed in a ``go-as-we-can-afford-to-pay'' manner; 
so if we receive less funding than requested, we will adjust our pace. 
Our stakeholders have my commitment to continue to keep them informed 
as to what I believe is the best approach to carrying out NASA's space 
and aeronautics research missions with the resources provided. In this 
determination, I will be guided by the NASA Authorization Acts, annual 
Appropriations Acts, Presidential policy, and the decadal survey 
priorities of the National Academy of Sciences. If we determine that 
there is an agency objective that we will be unable to meet, I will 
inform our agency's stakeholders, including this Subcommittee.

Highlights of the NASA FY 2008 Budget Request
    The FY 2008 budget request for NASA is a carefully considered and 
balanced request formulated over many months with the White House. 
Unfortunately, the Congress had not completed action on the FY 2007 
budget at the time the FY 2008 budget was being finalized, so the 
impact of the final FY 2007 appropriation outcome is not accounted for 
in NASA's FY 2008 budget request. The FY 2008 budget request weaves 
together the Nation's priorities in space exploration, scientific 
discovery, and aeronautics research that will help fuel this Nation's 
future, creating new opportunities for scientific benefit, economic 
growth, national security, and international cooperation.
    The greatest challenge NASA faces is safely flying the Space 
Shuttle to assemble the International Space Station (ISS) prior to 
retiring the Shuttle in 2010, while also bringing new U.S. human 
spaceflight capabilities online soon thereafter. We must understand 
that, given proper goals, human spaceflight is a strategic capability 
for this Nation, and we must not allow it to slip away. In January, we 
remembered those whom we have lost in the exploration of space. In the 
aftermath of the Columbia tragedy, President Bush addressed the NASA 
workforce, saying: ``In your grief, you are responding as your friends 
would have wished--with focus, professionalism, and unbroken faith in 
the mission of this agency.'' We must commit ourselves to the focus of 
professionalism and unbroken faith every day in order to carry out the 
tasks before us.
    In analyzing not only the root causes, but also the systemic 
reasons behind the Columbia accident, the Columbia Accident 
Investigation Board (CAIB) made critical observations that guided the 
formulation of our present civil space policy. I fear that with the 
passage of time and the press of other concerns, we may be losing sight 
of some of these principles, so let me reiterate some of them here 
today. First, the CAIB noted that, ``The U.S. civilian space effort has 
moved forward for more than 30 years without a guiding vision.'' 
Second, ``because the Shuttle is now an aging system but still 
developmental in character, it is in the Nation's interest to replace 
the Shuttle as soon as possible as the primary means for transporting 
humans to and from Earth orbit.'' Third, ``the previous attempts to 
develop a replacement vehicle for the aging Shuttle represent a failure 
of national leadership.'' And finally, the Board noted that ``this 
approach can only be successful: if it is sustained over the decade; if 
by the time a decision to develop a new vehicle is made there is a 
clearer idea of how the new transportation system fits into the 
Nation's overall plans for space; and if the U.S. Government is willing 
at the time a development decision is made to commit the substantial 
resources required to implement it.''
    Since then, the President, the Congress and NASA have charted a new 
course in U.S. civil space policy that addresses all of these points, 
and the President's FY 2008 budget reaffirms that commitment with the 
necessary funds for the Space Shuttle and the ISS. NASA will continue 
forward at the best possible pace with the development of the Orion and 
Ares I crew vehicles. However, due to the cumulative effect of Space 
Shuttle Return to Flight and operations cost increases and the FY 2007 
appropriation, NASA may not be able to bring these new capabilities on-
line by 2014. If we do not quickly come to grips with this issue, 
America may have a prolonged gap between the end of the Shuttle program 
and the beginning of Orion and Ares I operational capability, a gap 
similar to the one that occurred from 1975 to 1981 when our Nation 
transitioned from Apollo to the Space Shuttle.
    NASA has a lot of hard work ahead of it and many major milestones 
this year and next. The transition from the Space Shuttle to the Orion 
and Ares launch vehicles over the next several years must be carefully 
managed, and we must be focused, professional and committed to our 
mission. This is NASA's greatest challenge, and I ask the 
Subcommittee's help in meeting it.
    In the important area of Earth Science, we recently received the 
first-ever Decadal Survey for Earth Science from the National Academy 
of Sciences, which NASA, the National Oceanic and Atmospheric 
Administration (NOAA), and the United States Geological Survey (USGS) 
requested in 2003. As the first of its kind, the Survey has drawn 
considerable attention, and we will observe the programmatic priorities 
for Earth Science which it advocates. In addressing the Survey's Earth 
Science priorities, and consistent with ensuring that NASA maintains a 
balanced portfolio of science as directed by the NASA Authorization Act 
of 2005 (Pub. L. 109-155), we have added funding to the Global 
Precipitation Measurement (GPM) mission, the follow-on to the highly 
successful Tropical Rainfall Measuring Mission (TRMM), to improve our 
ability to keep this mission on schedule. Our plan is to launch the 
first Core satellite for the GPM mission not later than 2013, followed 
by the second Constellation spacecraft the following year. The FY 2008 
budget request also augments funding for the Landsat Data Continuity 
Mission (LDCM) and Glory missions in order to help keep those projects 
on schedule. Within Planetary Sciences, funding has been identified for 
Lunar Science research project beginning in FY 2008 to leverage the 
many opportunities for payloads on NASA and other nations' lunar 
spacecraft, such as India's Chandrayaan-1, as well as to analyze the 
science data from these missions, including NASA's Lunar Reconnaissance 
Orbiter. In 2008, we will launch a host of Heliophysics missions, many 
with international and interagency partners, to analyze the effects of 
solar flares, coronal mass ejections, and galactic cosmic rays. In 
Astrophysics, the final Hubble servicing mission is currently planned 
for a Space Shuttle flight in September 2008. And, as I advised the 
Congress and the science community last summer, NASA has reinstated the 
Stratospheric Observatory for Infrared Astronomy (SOFIA) mission. 
Though we know of no technical show-stoppers in regard to the 
airworthiness of the aircraft or operation of the telescope, this 
program has some remaining hurdles to overcome and so remains subject 
to a management review later this spring. NASA will launch or 
participate in seven science missions in FY 2007, followed by 10 
missions in FY 2008, resulting in many new Earth and space science 
discoveries in the years ahead.
    The FY 2008 budget request increases the budget profile for 
Aeronautics Research over the President's FY 2007 request, aligns our 
aeronautics activities with the President's recently issued Aeronautics 
Research and Development Policy, and advances U.S. technical leadership 
in aeronautics. NASA has made significant progress in reformulating its 
approach to aeronautics research by collaborating with the broad 
research community including industry, academia, and other government 
agencies including the Federal Aviation Administration (FAA) and the 
Department of Defense (DOD). Through these changes, NASA will help 
ensure that America continues to lead the way in aeronautics research.
    NASA continues to monitor and manage our ``uncovered capacity'' 
(employees not directly assigned to specific projects and programs). A 
little over 18 months ago, nearly 3,000 of NASA's 19,000 employees were 
designated as ``uncovered capacity.'' Today, largely with the work 
defined in the Constellation program, we have greatly reduced that 
problem to manageable levels. As of February 2007, we have fewer than 
200 uncovered capacity employees in FY 2007 and FY 2008. More 
importantly, many of our best engineers are working diligently on the 
great challenges before us. Every NASA Center is now vested in our 
space exploration mission. While we are proud of the progress that has 
been made, significant human capital challenges remain. These include 
matching available skills with the important work to be done, managing 
attrition, retraining and hiring, and improving our workforce planning 
for future years in FY 2009 and beyond. To address these challenges and 
any potential impacts resulting from the FY 2007 funding reductions, we 
have established a new intra-agency Workforce Planning Technical Team.
    In addition, beginning in FY 2007, the agency revised overhead 
allocations to simplify how we manage under full cost accounting. These 
changes will ensure a uniform cost rate for all NASA civil servants 
across the agency's government field centers. All changes are revenue-
neutral to programs and projects; none of NASA's missions gain or lose 
funding as a result of this accounting change. At first glance, this 
accounting change appears to reduce the Aeronautics Research budget 
because so much of that work is done at our smaller research Centers. 
However, in actuality, NASA's direct spending for Aeronautics Research 
has increased in the FY 2008 budget runout by $205 million through FY 
2011 compared to the FY 2007 budget runout.
    Beyond our budget request, NASA is beginning to transition the 
workforce, infrastructure, and equipment from the Space Shuttle to new 
Exploration systems. Many of our most experienced people will be 
considering retirement between now and 2010. We will need the means to 
manage this attrition in a targeted manner to achieve better alignment 
of the workforce with our mission without creating unwanted losses and 
skills imbalances. One tool we may be using is the authority for the 
agency to be able to re-employ selected retirees without an offset to 
their annuity--thus giving them an incentive to see a project or 
program to completion. To assist employees with transition to the 
private sector, and ease that upheaval, another tool would authorize 
NASA to continue their coverage under the Federal Employees Health 
Insurance for 1 year after departure.
    We will also need better tools to manage the transition of our 
facilities. The agency is proposing slight changes and expansion to 
existing authority to permit leasing of under-utilized facilities and 
related equipment. The agency would retain the proceeds of those leases 
to be deposited in a NASA capital asset account and invested in 
activities to improve and sustain our facilities and infrastructure. We 
plan to discuss the details of these legislative requests with Members 
of Congress in the weeks and months ahead.
    The remainder of my testimony outlines the FY 2008 budget request 
for NASA in greater detail.

Science Mission Directorate
    This past year was truly remarkable for science discovery about the 
Earth, Sun, solar system, and universe. NASA was responsible for 11 
percent of Science News magazine's top stories (covering all fields of 
science) for 2006, which is an all-time record in the 34 years of 
tracking this metric. NASA's findings ranged from new observations of 
familiar phenomena like hurricanes, thunderstorms, and rainfall, to the 
identification of 16 new extra-solar planets orbiting distant stars 
near the center of our galaxy. As NASA continues to add observations 
from long-lived assets such as the Spirit and Opportunity Mars 
Exploration Rovers, it continues to successfully develop and launch the 
next generation of missions and to support a vigorous scientific 
community.
    In 2006, NASA launched four new science missions, one technology 
demonstration mission, and partnered with other Federal and 
international agencies to launch three other science and technology 
missions, as well as the GOES-O satellite, to bring the current total 
number of operational science missions to 52. In January 2006, we 
launched the New Horizons spacecraft to the planet Pluto. Scheduled to 
arrive at Pluto in 2015, the spacecraft is making its closest approach 
to Jupiter as we speak. With the April 2006 launch of the CloudSat and 
Cloud-Aerosol Lidar and Infrared Pathfinder Satellite Observations 
(CALIPSO) spacecraft, NASA added to the ``A-train'' of satellites 
flying in close proximity around Earth to gain a better understanding 
of key factors related to climate change. In October 2006, NASA's twin 
Solar Terrestrial Relations Observatories mission (STEREO) spacecraft 
were launched to help researchers construct the first-ever 3-
dimensional views of the sun. Although the two spacecraft will not 
return images until later this year, initial results from STEREO have 
provided us with an unprecedented look at solar activity. A few weeks 
ago, we also recently launched five Time History of Events and 
Macroscale Interactions during Substorms (THEMIS) microsatellites to 
study the Earth's magnetosphere, and we are on track to launch the Dawn 
mission to main belt of asteroids between Mars and Jupiter and the 
Phoenix Mars mission later this year.
    NASA's FY 2008 budget requests $5.5 billion for the agency's 
Science portfolio. This represents an increase of $49.3 million (or 1 
percent) over the FY 2007 request and will enable NASA to launch or 
partner on 10 new missions, operate and provide ground support for more 
than 50 spacecraft, and fund scientific research based on the data 
returned from these missions. For FY 2008, NASA separated the Earth-Sun 
System theme into two themes: Earth Science and Heliophysics, and 
programmatic responsibility for studies of Near Earth Objects is 
transferred to the Exploration Systems Mission Directorate
    The Earth Science budget requests $1.5 billion, an increase of 
$27.7 million over the FY 2007 request, to better understand the 
Earth's atmosphere, lithosphere, hydrosphere, cryosphere, and biosphere 
as a single connected system. This request includes additional funding 
for the Global Precipitation Measurement (GPM) mission to improve 
schedule assurance in response to the high priority placed on GPM in 
the Decadal Survey. As the follow-on to the highly successful Tropical 
Rainfall Measuring Mission, NASA's plans to launch GPM's first Core 
satellite no later than 2013, followed by the second Constellation 
spacecraft the following year. The Earth Science budget also includes 
increased funding for the Landsat Data Continuity Mission and Glory in 
order to help keep them on their schedules, and provides funds for the 
National Polar-orbiting Operational Environmental Satellite System 
(NPOESS) Preparatory Project (NPP) to reflect instrument availability 
and launch delays. Funds are requested for continued development and 
implementation of the Ocean Surface Topography Mission to launch in 
2008, the Aquarius mission to measure the ocean's surface salinity to 
launch in 2009, and the Orbiting Carbon Observatory mission planned for 
launch in 2008. NASA will continue to contribute to the President's 
Climate Change Research Initiative by collecting data sets and 
developing predictive capabilities that will enable advanced 
assessments of the causes and consequences of global climate change. 
Over the coming months, NASA will evaluate opportunities for 
implementing the recommendations of the National Research Council's 
Earth Science Decadal Survey and responding to challenges to the 
continuity of climate measurements resulting from the Nunn-McCurdy 
recertification of the NPOESS program.
    The Heliophysics budget request of $1.1 billion will support 14 
operational missions to understand the Sun and its effects on Earth, 
the solar system, and the space environmental conditions that will be 
experienced by astronauts, and to demonstrate technologies that can 
improve future operational systems. During FY 2008, the Explorer 
Program will launch the Interstellar Boundary Explorer (IBEX) mission, 
focused on the detection of the very edge of our solar system, and the 
Coupled Ion-Neural Dynamics Investigation (CINDI) Mission of 
Opportunity conducted by the University of Texas. The Solar Dynamics 
Observatory (SDO) to study the Sun's magnetic field will complete 
launch readiness milestones in FY 2008 and is presently scheduled for 
launch in August of 2008. The Geospace Radiation Belt Storm Probes 
(RBSP) mission, presently in formulation, will undergo a Preliminary 
Design Review and a Non-Advocate Review in FY 2008 in preparation for 
entering development in early FY 2009. RBSP will improve the 
understanding of how solar storms interact with Earth's Van Allen 
radiation belts. While the ST-7 and ST-8 missions are on track for 
launches in 2009, the New Millennium ST-9 mission, along with follow-on 
missions, is delayed.
    The Planetary Science budget request of $1.4 billion will advance 
scientific knowledge of the solar system, search for evidence of 
extraterrestrial life, and prepare for human exploration. NASA will get 
an early start on Lunar science when the Discovery Program's Moon 
Mineralogy Mapper (M3) launches aboard India's Chandrayaan-1 mission in 
March 2008, along with the Mini-RF, a technology demonstration payload, 
supported by NASA's Exploration and Space Operations Mission 
Directorates and the Department of Defense, which may glean water in 
the Moon's polar regions. In addition, the budget requests $351 million 
from FY 2008 to FY 2012 for new Lunar Science research, including 
Missions of Opportunity, data archiving, and research. The budget 
supports the Mars Exploration Program by providing for a mission every 
26 months, including the Phoenix spacecraft, scheduled for launch in 
2007, and the Mars Science Laboratory, with a launch scheduled for 
2009. The Discovery Program's Dawn Mission is scheduled to launch later 
this year, and the Mercury Surface, Space Environment, Geochemistry and 
Ranging (MESSENGER) spacecraft is already on its way to Mercury. Three 
Discovery mission proposals and three Missions of Opportunity were 
selected in 2006 for Phase A studies, and the Discovery Program will 
invite proposals for additional new missions in 2008. With the New 
Horizons spacecraft continuing on its way to Pluto, the New Frontiers 
Program's Juno Mission will undergo a Preliminary Design Review and a 
Non-Advocate Review in FY 2008 in preparation for entering development. 
The New Frontiers Program will release its third Announcement of 
Opportunity (AO) in late 2008.
    The Astrophysics budget requests $1.6 billion to operate NASA's 
astronomical observatories, including the Hubble Space Telescope (HST), 
Chandra X-Ray Observatory, and Spitzer Space Telescope, and to build 
more powerful instruments to peer deeper into the cosmos. HST is 
scheduled for a final servicing mission in September 2008 using the 
Space Shuttle Atlantis. Along with service life extension efforts, two 
new instruments will be installed during the servicing mission that are 
expected to dramatically improve performance and enable further 
discoveries, including enabling some science observations that have 
been affected by the recent failure of the Advanced Camera for Surveys. 
After the servicing mission, HST will once again have six fully 
operational instruments (including a suite of cameras and spectrographs 
that will have about 10 times the capability of older instruments) as 
well as new hardware capable of supporting at least another 5 years of 
world-class space science. The ESA Herschel and Planck missions, both 
of which include contributions from NASA, will launch in FY 2008 aboard 
an ESA-supplied Ariane-5. The Kepler instrument and spacecraft 
integration and test will be completed in preparation for launch in 
November 2008, to determine the frequency of potentially habitable 
planets. The Gamma-ray Large Area Space Telescope (GLAST) will launch 
in FY 2008 to begin a five-year mission mapping the gamma-ray sky and 
investigating gamma-ray bursts. The James Webb Space Telescope will 
undergo Preliminary Design Review and a Non-Advocate Review in FY 2008, 
in preparation for entering development. The SOFIA observatory has been 
reinstated. Though we know of no technical showstoppers in regard to 
the airworthiness of the aircraft or operation of the telescope, this 
program has some remaining hurdles to overcome and so remains subject 
to a management review later this spring chaired by the NASA Associate 
Administrator. The SOFIA program baseline will be finalized at that 
time.

Exploration Systems Mission Directorate
    The FY 2008 budget request for the Exploration Systems Mission 
Directorate (ESMD) is $3.9 billion to support continued development of 
new U.S. human spaceflight capabilities and supporting technologies, 
and to enable sustained and affordable human space exploration after 
the Space Shuttle is retired in 2010. With this budget, ESMD will 
continue to try to operate our next-generation Crew Exploration Vehicle 
by 2014, while also providing research and developing technologies for 
the longer-term development of a sustained human presence on the Moon. 
ESMD will also continue to work with other nations and the commercial 
sector to leverage its investments and identify opportunities for 
specific collaboration on lunar data and lunar surface activities. New 
human spaceflight development of this magnitude, such as the Orion Crew 
Exploration Vehicle, occurs once in a generation. The next 5 years are 
a critical period in our Nation's space flight efforts.
    The Constellation program includes the Orion Crew Exploration 
Vehicle; Ares I, a highly reliable crew launch vehicle; Commercial 
Orbital Transportation Services (COTS) demonstrations of cargo and crew 
transport to the International Space Station; Ares V, a heavy-lift 
launch vehicle; spacesuits and tools required by the flight crews and; 
associated ground and mission operations infrastructure to support 
either lunar and/or initial low Earth orbit (LEO) missions.
    For FY 2008, pending a full analysis of the FY 2007 budget impacts, 
ESMD is on track to maintain its commitments for Ares I and Orion, and 
to continue meeting major milestones. This year Constellation will 
continue to mature and develop overall. Formulation of the 
Constellation elements will continue, leading to the Preliminary Design 
Review in 2008, at which time the program will be baselined. NASA will 
conduct an update for the overall Constellation Systems Requirements 
Review (SRR) in 2007 after the completion of all the Program Element 
SRRs. ESMD recently released the Ares I Upper Stage Request for 
Proposals (RFP). The RFP for the Ares I Avionics Ring is scheduled for 
release in May 2007, with selection and contract award scheduled for 
November 2007.
    Facility, equipment, and personnel transitions from Space Shuttle 
to Constellation will be the major emphasis of the FY 2009 budget 
process. NASA transition activities are focused on managing the 
evolution from current operations of the Space Shuttle to future 
operations of Constellation and emerging commercial services, in a 
safe, successful and smooth process. This joint effort between the 
Space Operations Mission Directorate (SOMD) and ESMD includes the 
utilization and disposition of resources, including real and personal 
property, personnel, and processes, to leverage existing Shuttle and 
International Space Station assets for NASA's future Exploration 
activities. Formalized Transition Boards are working to achieve this 
outcome. A Human Spaceflight Transition Plan was developed in 2006, 
updates are in work, and metrics for the plan are being refined and 
will be implemented in 2007.
    In August 2006, NASA signed Space Act Agreements with Space 
Exploration Technologies Corporation, of El Segundo, California, and 
Rocketplane-Kistler, of Oklahoma City, Oklahoma, to develop and 
demonstrate Commercial Orbital Transportation Services (COTS) that 
could open new markets and pave the way for commercial providers to 
launch and deliver crew and cargo to the ISS. The Space Act Agreements 
establish milestones and identify objective criteria to assess their 
progress throughout Phase 1 of the demonstrations. In the FY 2008 
budget, funding for the purchase of crew and cargo transportation 
services, either from international partners or preferably from 
commercial providers, is transferred from ESMD to SOMD. COTS 
demonstration funding remains in ESMD to better exploit potential 
synergies with the Constellation Program.
    With activities in the Advanced Capabilities program, NASA seeks to 
understand the space environment as it relates to human performance by 
addressing respective recommendations from the Exploration Systems 
Architecture Study that was conducted in 2005. This included refocusing 
biomedical research and human life-support activities through new 
milestones and requirements to target the timely delivery of research 
products. Accordingly, ESMD created two new programs under Advanced 
Capabilities: the Human Research Program (HRP) to study and mitigate 
risks to astronaut health and performance and the Exploration 
Technology Development Program (ETDP) to enable future Exploration 
missions and reduce cost and risk. Plans for 2008 include:

  <bullet> Testing of prototype ablative heat shield materials, low-
        impact docking systems, and landing attenuation systems;

  <bullet> Testing of advanced environmental control systems on the 
        ISS;

  <bullet> Developing a lightweight composite command module test 
        article for the Orion;

  <bullet> Conducting studies to assess risks of long-term radiation 
        exposure and continuing the use of the ISS as a testbed for 
        studying human health and safety in space;

  <bullet> Spacecraft integration and testing in preparation for the 
        Lunar Reconnaissance Orbiter (LRO) launch in October 2008;

  <bullet> Next-generation spacesuit capable of supporting exploration; 
        and

  <bullet> Developing jointly with the USAF the RS-68 engine that will 
        be used on the Ares V.

    Finally, the LRO and the Lunar CRater Observatory Sensing Satellite 
(LCROSS) to the Moon is planned to be launched in early FY 2008. These 
dual-manifested spacecraft have completed Critical Design Review and 
are currently in development. The science yielded from these missions 
will enable future outpost site selection and new information about the 
deep craters at the lunar poles. The LRO/LCROSS missions represent 
NASA's first steps in returning to the Moon.

Aeronautics Research Mission Directorate
    In 2006, NASA's Aeronautics Research Mission Directorate (ARMD) 
conducted a significant restructuring of its aeronautics program, 
allowing NASA to pursue high-quality, innovative, and integrated 
research that will yield revolutionary tools, concepts, and 
technologies to enable a safer, more flexible, environmentally 
friendly, and efficient national air transportation system. As such, 
ARMD's research will continue to play a vital role in supporting NASA's 
human and robotic space activities. The reshaped Aeronautics Program 
content and direction is consistent with the National Aeronautics 
Research and Development Policy, signed by the President on December 
20, 2006.
    A primary goal across all of the programs in ARMD is to establish 
strong partnerships involving NASA, other government agencies, 
academia, and industry in order to enable significant advancement in 
our Nation's aeronautical expertise. Because these partnerships are so 
important, NASA has put many mechanisms in place to engage academia and 
industry, including industry working groups and technical interchange 
meetings at the program and project level, Space Act agreements for 
cooperative partnerships, and the NASA Research Announcement (NRA) 
process that provides for full and open competition for the best and 
most promising research ideas. During 2006, ARMD's NRA solicitation 
resulted in the selection of 135 proposals for negotiation for award 
from 72 different organizations representing 29 different states plus 
the District of Columbia. NASA's FY 2008 budget request for Aeronautics 
includes $51 million for NRA awards.
    In FY 2008, the President's budget for NASA requests $554 million 
for Aeronautics Research. This budget reflects full cost 
simplification, which significantly reduces the Center overhead and 
infrastructure allocated to Aeronautics programs.
    NASA's Airspace Systems Program (ASP) has partnered with the Joint 
Planning and Development Office (JPDO) to help develop concepts, 
capabilities and technologies that will lead to significant 
enhancements in the capacity, efficiency and flexibility of the 
National Airspace System (NAS). Such improvements are critical to meet 
the Nation's airspace and airports requirements for decades to come. In 
FY 2008, NASA's budget request would provide $98.1 million for ASP to 
conduct further research in operational concepts and human-in-the-loop 
simulation modeling that supports advancements in automated separation 
assurance capabilities. In addition, ASP will pursue enhanced 
development of airport surface movement trajectory models to provide a 
basis for optimized use of super density airports, integrated airport 
clusters, and terminals where demand for runways is high. Last year, 
ASP took an important step toward this goal by completing development 
of a system-wide operational concept that provides a detailed 
description of future NAS capacity enhancements while assessing the 
benefits of such system improvements. Key to the analysis of the 
operational concepts was program-developed tools such as the Airspace 
Concepts Evaluation System and the Future Air Traffic Management 
Concepts Evaluation Tool, both of which have successfully transitioned 
from NASA to the Federal Aviation Administration and the JPDO.
    NASA's Fundamental Aeronautics Program (FAP) conducts research in 
the engineering and scientific disciplines that enable the design of 
vehicles that fly through any atmosphere at any speed. The FY 2008 
budget request, amounting to $293.4 million, will enable significant 
advances in the Hypersonics, Supersonics, Subsonic Fixed Wing, and 
Subsonic Rotary Wing projects that make up the FAP. These projects 
focus on creating innovative solutions for the technical challenges of 
the future: increasing performance (range, speed, payload, fuel 
efficiency) while meeting stringent noise and emissions constraints; 
alleviating environmental and congestion problems of the Next 
Generation Air Transportation System (NGATS) through the use of new 
aircraft and rotorcraft concepts; and facilitating access to space and 
re-entry into planetary atmospheres. A wide variety of cross-cutting 
research topics are being pursued across the speed regimes with 
emphasis on physics-based multi-disciplinary analysis and design, 
aerothermodynamics, materials and structures, propulsion, aero-servo-
elasticity, thermal protection systems, advanced control methods, and 
computational and experimental techniques. A number of key activities 
are planned for FY 2007 and 2008 including the launch of a suborbital 
rocket to conduct flight experiments in hypersonic boundary layer 
transition and re-entry shapes, the flight test of scale models of the 
X-48B Blended Wing-Body concept to assess this advanced unconventional 
airframe configuration for its potential to decrease aircraft noise 
while also improving performance, the evaluation of radical new 
concepts for variable-speed rotor technologies that can result in 
highly improved performance, and the evaluation of actively-controlled 
inlets for supersonic transports.
    The FY 2008 budget request for NASA's Aviation Safety Program 
(AvSP) is $74.1 million. The four projects within the Program 
(Integrated Intelligent Flight Deck, Integrated Resilient Aircraft 
Control, Aircraft Aging and Durability, and Integrated Vehicle Health 
Management) will develop cutting-edge tools, methods, and technologies 
with close coordination among them to improve the intrinsic safety 
attributes of current and future aircraft that will operate in the 
NGATS. In FY 2008, the Program will complete a study of human-
automation technology that will improve safety during approach and 
landing operations by allowing for active operator assistance that 
maintains appropriate levels of workload and will be conducted to 
evaluate neural networks for direct adaptive control that will maximize 
adaptation to simulated in-flight failures while minimizing adverse 
interactions. At the same time, onboard sensor technology will be 
developed and validated to achieve significant improvement in measuring 
atmospheric water content that will improve the ability to detect the 
onset of potential icing hazards. Challenges related to aircraft aging 
and durability will also be addressed by developing models capable of 
simulating the initiation and propagation of minute cracks in metallic 
materials.
    Finally, NASA's Aeronautics Test Program (ATP) will continue to 
safeguard the strategic availability of a critical suite of aeronautics 
test facilities that are deemed necessary to meet agency and national 
aeronautics needs. The FY 2008 budget request for ATP is $88.4 million, 
which will enable strategic utilization, operations, maintenance and 
investment decisions for major wind tunnel/ground test facilities at 
Ames Research Center, Glenn Research Center and Langley Research Center 
and for the Western Aeronautical Test Range support aircraft and test 
bed aircraft at Dryden Flight Research Center. In FY 2006, NASA 
implemented procedures to ensure affordable and competitive pricing of 
its aeronautics facilities for use by other parties, including industry 
and university researchers. In FY 2008, ATP plans to continue ensuring 
competitive prices for ATP facilities, reducing a backlog of 
maintenance issues and investing in advanced technologies such as 
installing consistent angle of attack instrumentation at the research 
Centers.

Space Operations Mission Directorate
    This was an extraordinary year for the Space Shuttle and 
International Space Station (ISS) Programs. NASA celebrated 
Independence Day 2006 by launching Space Shuttle Discovery on the STS-
121 mission. The second of two test flights (the first was STS-114 in 
July/August 2005), STS-121 helped validate the improvements made to the 
Space Shuttle system since the loss of Columbia on February 1, 2003. 
The mission also marked the return of a complement of three crewmembers 
to the ISS. The Space Shuttle Atlantis (STS-115), which launched on 
September 9, marked a return to sustained Space Shuttle operations and 
placed NASA on track to completing assembly of the ISS by 2010. STS-115 
delivered the critical P3/P4 truss to the ISS, which will provide a 
quarter of the power services needed to operate the completed research 
facility. The last flight in December 2006, STS-116, was devoted 
primarily to deactivating the electrical power systems on the U.S. 
segment of the ISS and making a series of electrical and coolant 
connections between the P3/P4 truss segment and the rest of the 
Station. To do this, flight controllers at the mission control centers 
in Houston and Moscow uplinked over 17,900 commands to the ISS during 
the mission--all without a single unplanned or command error. STS-116 
crewmember Robert Curbeam also set a record for the most spacewalks 
ever conducted by an astronaut on a single Space Shuttle mission, with 
four excursions totaling over 25 hours.
    Operational activities onboard the ISS have continued into 2007, 
with a series of spacewalks that reconfigured the thermal system on the 
Station and prepared us for future assembly tasks. The Station is now 
able to provide additional power to the Space Shuttle, allowing two 
extra docked days, and we have connected permanent systems in place of 
temporary ones. The sequence of three complex spacewalks within 9 days 
also demonstrated capabilities we will need later this year to fully 
install Node 2 following its delivery on STS-120.
    These mission achievements reflect the NASA team's dedication to 
safely and successfully flying out the Space Shuttle program and 
meeting our Nation's commitments to our international partners. The 
program's successes also led to the decision in October 2006 to move 
forward with plans for a final servicing mission to the Hubble Space 
Telescope (HST). Following an extensive review by the relevant NASA 
offices of all safety and technical issues associated with conducting 
such a mission, it became clear that an HST servicing mission could be 
carried out effectively and safely. While there is an inherent risk in 
all spaceflight activities, the desire to preserve a truly 
international asset like the HST makes doing this mission the right 
course of action.
    The Space Shuttle FY 2008 budget request of $4,007 million would 
provide for five Shuttle flights, including four ISS assembly flights 
as well as the HST servicing mission. The ISS assembly flights include 
the launch of major research facility modules from the European Space 
Agency and Japan. The Canadian Special Purpose Dexterous Manipulator 
robotic system will also be flown in 2008. These flights are a major 
step toward fulfilling U.S. commitments to NASA's international 
partners as specified in the ISS agreements and the Vision for Space 
Exploration.
    The FY 2008 budget request includes $2,239 million for ISS 
activities. NASA has consulted with our international partners on the 
configuration of the ISS, and is working closely with them to determine 
the detailed plans for logistics required during and after assembly. 
The FY 2008 budget request provides the necessary resources to purchase 
Soyuz crew transport and rescue for U.S. astronauts as well as Progress 
vehicle logistics support for the ISS from the Russian Space Agency.
    As the Shuttle approaches its retirement, the ISS Program intends 
to use alternative cargo and crew transportation services from 
commercial industry. Once a capability is demonstrated in Phase 1 of 
the Commercial Orbital Transportation Services (COTS) Space Act 
Agreements, NASA plans to purchase cargo delivery services 
competitively in Phase 2 and will decide whether to pursue crew 
demonstrations. In the FY 2008 budget, funding for the purchase of crew 
and cargo transportation services, either from international partners 
or preferably from commercial providers, is transferred from the 
Exploration Systems Mission Directorate to the Space Operations Mission 
Directorate. One item of significance in the FY 2008 budget runout, 
especially in the out-years, is that it allows for increases to our 
previously estimated costs for purchasing commercial cargo and crew 
services to support the ISS, assuming these commercial services are 
successfully demonstrated and are cost-effective. Should costs for 
those services be greater than what is presently budgeted, NASA has 
accepted a management challenge to scale back on our space operations 
costs and will curtail some of our robotic lunar exploration or long-
term exploration technology development in the out-years. COTS 
demonstration funding remains in ESMD to better exploit potential 
synergies with the Constellation Program.
    The Space Shuttle Program's highest priority is to safely complete 
the mission manifest by the end of FY 2010, using as few flights as 
possible. Working through formalized Transition Control Board 
processes, the Space Shuttle Program will also play a key role in 
coordinating the smooth transition of Space Shuttle assets and 
capabilities to the next generation of Exploration systems without 
compromising the safety of ongoing flight operations. The greatest 
challenge NASA faces is safely flying the Space Shuttle to assemble the 
ISS prior to retiring the Shuttle in 2010, while also bringing new U.S. 
human spaceflight capabilities online soon thereafter. There are a 
number of major transition milestones set for FY 2008, including the 
transition of one of the four high bays in the Vehicle Assembly 
Building and Launch Pad 39B to the Constellation Systems Program. Space 
Shuttle Atlantis may also be retired in FY 2008 after the HST SM-4 
mission and its systems and parts would be used to support the 
remaining Space Shuttle Orbiters, Discovery and Endeavour, during the 
program's last 2 years of operations. The FY 2008 budget request 
reflects the current assessment of costs to retire the Space Shuttle. 
Over the next year, NASA will develop additional detail and refine our 
cost estimates for the transition.
    The FY 2008 budget also provides for the procurement of two 
additional Tracking and Data Relay Satellite System (TDRSS) satellites 
to replenish the constellation. NASA projects that the availability of 
aging TDRSS satellites to support overall user demand will be reduced 
by 2009 and depleted by 2015. In order to continue to support all 
users, NASA must begin the procurement process immediately, with 
planned launches in FY 2012 and FY 2013. By replenishing the 
satellites, NASA will be able to meet overall user demand through 2016. 
The Space Operations Mission Directorate has partnered with non-NASA 
users to provide a proportionate investment in the replacement 
capabilities.

Cross-Agency Support Programs
    The FY 2008 Budget Request for activities within the Cross-Agency 
Support Programs (CASP)--Education, Advanced Business Systems, 
Innovative Partnerships Programs, and Shared Capabilities Assets 
Program--is $498.2 million. Within this amount, $34.3 million is for 
the Shared Capability Assets Program (SCAP), which is designed to 
ensure that critical capabilities and assets (e.g., arc jets, wind 
tunnels, super computing facilities, rocket propulsion testing, etc.) 
required agency-wide are available to missions when needed. The FY 2008 
budget request for Advanced Business Systems, comprising the Integrated 
Enterprise Management Program (IEMP), is $103.1 million. FY 2007 and FY 
2008 funding will support IEMP in implementing capabilities that 
improve NASA's tracking and accountability of its property, plant, and 
equipment; integrate human capital information, providing employees and 
management with new, secure tools for accessing personnel data, and 
planning and budgeting NASA's workforce; and, provide more relevant and 
accurate financial information in support to NASA's programs and 
projects. This funding also supports ongoing operations and maintenance 
of NASA's financial system and other agency-wide business systems.
    For NASA's Education activities, the FY 2008 budget request totals 
$153.7 million and sustains our ongoing commitment to excellence in 
science, technology, engineering, and mathematics (STEM) to ensure that 
our agency is equipped with the right workforce to implement the Vision 
for Space Exploration. NASA will continue the tradition of investing in 
education and supporting educators who play a key role in preparing, 
inspiring, exciting, encouraging, and nurturing the youth who will 
manage and lead the laboratories and research centers of tomorrow. NASA 
Education is committed to three primary objectives to help improve the 
state of STEM education in our country: strengthen the Nation's and 
NASA's future workforce; attract and retain students in the STEM 
discipline and; engage the American people in NASA's missions through 
partnerships and alliances.
    The Innovative Partnerships Programs (IPP) provides leveraged 
technology investments, dual-use technology-related partnerships, and 
technology solutions for NASA. The FY 2008 budget request for IPP 
activities is $198.1 million. The IPP implements NASA's Small Business 
Innovative Research (SBIR) and Small Business Technology Transfer 
(STTR) Programs that provide the high-technology small business sector 
with an opportunity to develop technology for NASA. Recently, NASA has 
made some changes to the management structure of these two programs to 
better enable technology infusion and to increase the efficiency of the 
operations. IPP also manages the Centennial Challenges Program. NASA 
has already benefited from the introduction of new sources of 
innovation and technology development even though the Program is 
relatively new and no prizes have yet been awarded. In addition, 
ongoing and future prize challenges will continue to inspire brilliant 
young minds.

Conclusion
    NASA has many challenges ahead of us, but we are on track and 
making progress in managing these challenges. The FY 2008 budget 
request demonstrates commitment to our Nation's leadership in space and 
aeronautics research, and while we may face a significant funding 
reduction for FY 2007, we will carry on, though not at the pace we had 
previously hoped.
    I ask your help to ensure this Nation maintains a human space 
flight capability. Without stable funding as requested in this budget, 
we face the very real possibility of allowing that capability to slip 
away for the foreseeable future--even as other nations continue to 
develop similar capabilities.
    I also need your help to effectively transition key elements of our 
Space Shuttle workforce, infrastructure, and equipment to our Nation's 
exploration objectives. The provisions I referenced earlier, as well as 
stable funding, will help ensure we preserve a critical and unique 
industrial base capability that has allowed the United States to lead 
the world in space exploration.
    Again, thank you for the opportunity to appear before you today. I 
would be pleased to respond to any questions that you may have.

    Senator Nelson. Thank you, Dr. Griffin.
    Senator Stevens, if you need to leave, go ahead.
    Senator Stevens. You're very kind.
    As I listened to you, I think you're right, in your last 
statement. But, you know, we have never made it available to 
the public to express their support, in terms of space bonds. 
Have you ever explored the concept of some space bonds so that 
we could purchase them and leave them to our grandchildren or 
something to collect, at a very low rate of interest? I think 
everyone in the country would contribute to keeping us in 
space. But the ability to get all the needed money out of the 
budget is almost impossible.
    Dr. Griffin. Yes, sir, I understand. We've not looked at 
space bonds. I don't think that's within our authorization. 
That would be a prerogative of the Congress.
    Senator Stevens. What would you think about it?
    Dr. Griffin. I think, as you think, sir. I think most 
Americans would be willing to buy such things to contribute to 
the space program. I mean, Americans have bought government 
bonds for many other important initiatives. I believe many 
would do so for this one.
    Senator Stevens. Thank you.
    Senator Hutchison. Let's work on it. That's great.
    Let me say thank you for always shooting straight. 
Sometimes I don't like the message, but you always shoot 
straight.
    Dr. Griffin. I'm sorry, Senator.
    Senator Hutchison. But I know that when you say you're 
going to do something, you do it, also. Let me ask you a couple 
of things.
    We had a very important meeting, Senator Nelson and I, with 
you and the appropriations staff, because I was alarmed at what 
the Appropriations Committee did, without our acquiescence, in 
cutting back on certain programs and adding certain programs in 
NASA without ever having a hearing, without ever consulting us. 
And we were very concerned. However, the appropriations staff 
person made it very clear that you had the ability to transfer 
according to need, and that you would have the flexibility to 
cover the priorities that you saw.
    I wanted to ask you if you are seeing that in actuality? Do 
you feel that you are able to cover some of those costs for the 
Crew Exploration Vehicle, continuation of its early--not 
production, but the early research and development? And do you 
feel comfortable that you have the flexibility that was 
described?
    Dr. Griffin. Senator, no, I don't think we have a lot of 
flexibility. The programmatic instruction in the FY07 bill is 
very clear. We have a $545-million, in round numbers, cut for 
all of NASA. That cut is administered in particular ways that 
result in taking about $675 million out of human spaceflight in 
order to produce increases in other areas or smaller reductions 
in other areas. So, no, I cannot sit here and say that I feel 
that I've been granted much flexibility by the Congress in 
apportioning that money.
    Senator Hutchison. Well, was that your impression in the 
meeting, that you would not have that flexibility? Or were you 
hearing what I thought he was saying, and suggesting language 
that would give you that flexibility?
    Dr. Griffin. I was in that meeting with you. I was not 
certain what really could be inferred from it. But a careful 
reading of the law tells us that I do not, in fact--we have 
taken a nearly $700-million cut in human spaceflight in order 
to address a $545-million cut across the agency. And the 
language is most specific. And I do not feel that I have much 
flexibility. I think my assistant just made the point that we 
do have a certain amount of flex on the institutional side to 
address the needs of full-cost accounting. So, with regard to 
our accounting system, we do have flexibility. Of course, that 
is very helpful, because we have changed our accounting 
approach this year. But I do not have programmatic flexibility.
    Senator Hutchison. So, have you had to slow down the Crew 
Exploration Vehicle buildup?
    Dr. Griffin. Yes, Senator. We will be slowing the 
development of the Crew Exploration Vehicle.
    Senator Hutchison. Well, I'm very disappointed to hear 
that, because it was my impression that the appropriations 
staff person was saying that you would have the flexibility to 
continue the priorities, which have been human spaceflight, and 
that continuation----
    Senator Nelson.--Senator Hutchison, let me interrupt here 
to ask a question. Wasn't that administrative flexibility about 
$200 million, Dr. Griffin?
    Dr. Griffin. I need to distinguish between accounting 
flexibility and programmatic flexibility. I do not have the 
flexibility to move money from one area to another. For 
example, I do not have the flexibility to minimize the delays 
to the Crew Exploration Vehicle, other than by taking other 
human spaceflight money. And I don't have extra money in the 
Shuttle and Station accounts, as you well know----
    Senator Hutchison. Right.
    Dr. Griffin.--so, I do not have that flexibility.
    Senator Nelson.--Excuse me for interrupting, but wasn't 
there one program that you told us, for example, in the 
development of the heat shield, that you could take out of 
exploration and put into aeronautics?
    Dr. Griffin. Although we were always planning to do this--
we can, and will, use our Aeronautics Research Mission 
Directorate to help with the development of the reentry heat 
shield for the Crew Exploration Vehicle. It was always planned 
that they would do that. I mean, the Aeronautics Research 
Mission Directorate is where that work would be done, and 
specifically at the Ames Research Center, is the headquarters 
for that. The question is, who pays for it? In years where 
aeronautics received less funding, we would have had the 
Exploration Systems Mission Directorate pay for it. In this 
year, we would contemplate having the Aeronautics Research 
Mission Directorate help pay for it. That is helpful. That is 
helpful. So, there's no change in the work. It's always been 
aeronautics work, and it was always planned to be done. The 
aeronautics account can help pay for that, yes.
    Senator Hutchison. So, that's----
    Dr. Griffin. That is a help.
    Senator Hutchison. But you're still going to have a 
slowdown?
    Dr. Griffin. As I said a moment ago, the net result of the 
decrease will be a 4- to 6-month delay, as best we can tell, in 
delivery of the Orion Crew Vehicle.
    Senator Hutchison. I would like to ask you if you would 
give me the detail of how much you would need in 
transferability to continue the Crew Exploration Vehicle--I 
don't know--is the research or engineering----
    Dr. Griffin. Right, it's----
    Senator Hutchison.--or planning or development stage--how 
much would you need transferred back in order to fulfill the 
timeline, if you were able to start in a month or so, and have 
the rest of this fiscal year?
    Dr. Griffin. I'll have to take that question for the 
record, but we'll get you the information on the money needed 
to remain on schedule, where we were before. It would be 
approximately the amount which was reduced this year, because 
most of the reduction came from that account. But we will get 
you that information.
    [The information referred to follows:]

    Based on the technical baseline and flight tests planned for the 
Orion Crew Exploration Vehicle (CEV) and the Ares I Crew Launch Vehicle 
(CLV) and the current projected budget available for Constellation 
Systems, NASA's estimate for the CEV Initial Operational Capability 
(IOC) is September 2015, with a schedule variance around this IOC date 
of approximately 4 months based on NASA's cost estimates. This CEV IOC 
date may be moved up if we delete other activities in the exploration 
budget to shore up funding for the CEV and CLV. Further, this projected 
IOC date is based on the NASA Exploration Systems budget resources not 
eroding below the current five-year runout or being re-directed to 
other activities. Initial Operational Capability (IOC) for the Orion 
and Ares I launch vehicle is defined here as the major milestone when 
test pilot astronauts fly the CEV for the first time to the 
International Space Station to conduct full-up testing of the new 
spacecraft. This is not planned to he a crew rotation flight. The 
second major milestone is Full Operational Capability (FOC) when the 
CEV and CLV will be capable of transporting crew to the International 
Space Station, remaining at the Station for up to 180 days, and safely 
returning a crew to Earth. This FOC is projected to occur approximately 
one year following IOC of the CEV and CLV.
    In order to meet a CEV IOC of 2014, NASA would require additional 
funds in the out-years to meet that IOC schedule with a 65 percent cost 
confidence level in our budgeting. The ideal time phasing of such funds 
would he approximately $350 million in FY 2009 and an additional $400 
million in FY 2010, though funding from FY 2008 may be obligated in FY 
2008 and FY 2009 to the CEV and CLV development. The schedule variance 
around the IOC date is approximately 4 months, based on NASA's cost 
estimates.

    Senator Hutchison. All right, thank you very much.
    Senator Nelson. May I interject right there? Now, let me 
get the math. $700 million minus $200 million that you have in 
flexibility administration, so that's $500 million. So, $500 
million, you're in deficit for the Fiscal Year. But the Fiscal 
Year started October the 1st. This is now the end of February. 
So, there is 7 months left of the Fiscal Year. So, 7/12ths of 
$500 million is something around $300 million. Is that a 
ballpark of what you would need juiced up for this fiscal year?
    Dr. Griffin. Well, I think we're mixing apples and oranges 
here, because, again, the institutional flexibility is mostly 
involved with the spreading of agency overhead, OK, among our 
accounts. Every business has direct costs and overhead. So, 
when we talk about flexibility, we do have the flexibility to 
apportion the overhead correctly, in accordance with our 
accounting roles. We don't have the flexibility to move direct 
funding. With all due respect, Senator Hutchison asked for an 
answer, on the record, that gives the right amount of money, 
and I can't do that in my head, so I'd rather provide that to 
you offline.
    Senator Nelson. We're trying to help you.
    Dr. Griffin. I know, Senator. Let me try to get at it 
another way. Increases were provided to facilities and 
aeronautics. Small decreases were taken in our science 
account--much less than the percentage of the cut we had. In 
order to allow the rest of that to happen, we had to take 
nearly $700 million out of human spaceflight. Almost all of 
that came from the Orion Crew Exploration Vehicle, which is now 
in development. Senator, you were asking about research or 
whatever. It's in the development stage. We've selected a 
contractor. They're busy working away, as are the folks at the 
NASA field centers. So, in truth, there isn't enough transfer 
authority to make up that much money, because that amount of 
money was bigger than the cut we took.
    Senator Hutchison. But you do have the offset of what is 
being done within aeronautics.
    Dr. Griffin. There is some work that can be done on the 
heat shield, and is being done in the Aeronautics Research 
Mission Directorate, but it isn't $200 million worth of work, 
by any stretch of the imagination.
    Senator Hutchison. Well, that's why I would like to have 
the accurate----
    Dr. Griffin. Yes.
    Senator Hutchison.--number, because maybe----
    Dr. Griffin. Exactly.
    Senator Hutchison.--we would have another way to restore 
some of that----
    Dr. Griffin. Exactly.
    Senator Hutchison.--through a supplemental.
    Dr. Griffin. I will get you that. I certainly know that 
you're trying to help. And I'm trying to help you. But, you 
know, the bottom line is that we're down over half a billion 
dollars, and most of that came from the Shuttle replacement 
vehicles.
    I would emphasize, I know that all of you know this, but, 
for the record, I want to make the point that many have said, 
``I'm not worried about the Moon right now.'' And I would say 
to them, ``Well, I'm not worried about the Moon right now, 
either. I'm worried about replacing the Shuttle.'' The budget 
cuts we have taken largely come out of replacing the Shuttle. 
And I will get you the exact figures.
    Senator Hutchison. Thank you. And I have another question, 
but, since Senator Dorgan has not yet questioned, I will defer.
    Senator Nelson. Before I turn to Senator Dorgan, are your 
figures calculating that you're going to be reimbursed for the 
money that you spent on hurricane repairs?
    Dr. Griffin. We have asked for transfer authority. As I 
think you know, we took money out of the Shuttle and Station 
accounts to pay for the Hurricane Katrina repairs. We've asked 
for transfer authority to be able to pay that back from the 
Hurricane Katrina supplemental that we did receive. That money 
is not involved, either way, with the exploration account. So, 
that was money that came out of Shuttle and Station. We'd like 
to put it back in Shuttle and Station.
    Senator Nelson. And how much money is that?
    Dr. Griffin. I will have to get you that for the record.
    [The information referred to follows:]

    Total Katrina requirements are currently estimated at $432.4 
million, made up of $384.8 million in direct Katrina-related 
requirements and $47.6 million in Shuttle/ISS payback needs.

  <bullet> MAF--$181.0 million
  <bullet> SSC--$197.2 million
  <bullet> NSSC--$3.2 million
  <bullet> Other--$3.4 million
  <bullet> Shuttle/ISS Payback--$47.6 million

    The $384.8 million in total direct Katrina requirements includes 
all Center recovery and operations activities and all high priority 
catastrophic loss mitigation projects, approved as of November 1, 2006.
    The $47.6 million in Shuttle/ISS payback needs reflects a reduction 
from NASA's earlier figure of $54 million, a result of the September 
2006 reprogramming to the ISS program of $6.4 million in Shuttle/ISS 
funds loaned for Katrina needs, which had not yet been spent.
    NASA currently has funding availability of $432.4 million to meet 
Katrina-related requirements:

  <bullet> $384.8 million in supplemental funding from P.L. 109-148 
        ($349.8 million) and Pub. L. 109-234 ($35.0 million)

  <bullet> $47.6 million loaned from Shuttle/ISS programs (already 
        obligated)

    NASA is seeking to transfer up to $48 million from the $384.8 
million in emergency supplemental funds to pay back the remaining 
Shuttle/ISS loan. The ISS program has content requirements in excess of 
budget availability in FY 2007 due to budget reductions over the past 
several years and impacts of the Columbia accident. This has resulted 
in a negative ISS reserve posture (more requirements and threats than 
available funding) for FY 2007, which ISS is closely monitoring. These 
negative reserves are currently booked in Operations and the program 
may have to consider potential content reductions in order to execute 
the next Fiscal Year. Payback to ISS for Katrina would go to ISS 
Operations to help implement the current program requirements and 
reduce the risk of potential content deletions, which could prevent the 
program from meeting its International Partner commitments and 
supporting the Vision for Space Exploration. The Space Shuttle Program 
(SSP) requires the payback of funds to mitigate both schedule and 
operational risk in FY 2007. The SSP is also projecting more 
requirements and threats than available funding, which reduces its 
programmatic ability to deal with unexpected requirements. Proposed 
language is as follows: ``Up to $48,000,000 of amounts made available 
to the National Aeronautics and Space Administration in Public Law 109-
148 and Public Law 109-234 for emergency hurricane and other natural 
disaster-related expenses may be used to reimburse hurricane-related 
costs incurred by NASA in Fiscal Year 2005.''
    If $47.6 million were transferred from the supplemental funds to 
repay the remaining Shuttle/ISS loan, the total available funding 
remaining for Katrina would be $384.8 million. the same amount as 
appropriated in the emergency supplemental measures. The full amount of 
$384.8 million would still be available for Katrina needs; no content 
would be affected by the transfer. NASA is able to fund all Katrina 
recovery and operations activities as well as all high priority 
catastrophic loss mitigation projects and still repay remaining 
borrowed Shuttle/ISS funds if transfer authority is provided by 
Congress.

    Senator Nelson. But whatever that is, it's some tens of 
millions.
    Dr. Griffin. Oh, many tens of millions, yes.
    Senator Nelson. Well, then, that's newfound money, isn't 
it? That would go into the Shuttle account.
    Dr. Griffin. Correct.
    Senator Nelson. Well, then, that's like additional money 
that you wouldn't absolutely have. What we'd like you to come 
up with is a figure that is realistic that we could go out and 
try to find for you, so you can keep on the schedule of 2014 or 
earlier for Orion/Ares.
    Dr. Griffin. We will do that.
    Senator Hutchison. Exactly.
    Senator Nelson. Senator Dorgan?

              STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. Mr. Chairman, thank you very much.
    Dr. Griffin, thank you for being here. You don't lift off 
from North Dakota. I don't have a large population of employees 
up in my part of the country, but I'm interested in NASA, and I 
especially am interested in the last comment you made, because 
I share that sentiment. I think when a society stops exploring, 
it stops progressing. I just think it's very important for us 
to continue to explore, and space exploration is very important 
in that exploration.
    I especially became interested, in the last decade, in the 
concept of Mission to Planet Earth, which NASA was very 
interested in, and that is developing the massive--or the 
substantial amount of information that you collect and create, 
and using it for beneficial purposes here on Earth. And so, 
that is one of the things that's piqued my interest, as well.
    Let me ask about the budget request, just for a moment. 
And, if I might, the $545 million that you're losing is from 
the President's 2007 request.
    Dr. Griffin. Yes, sir.
    Senator Dorgan. Our funding, though, in the continuing 
resolution, is a continuation of the 2006 level, isn't it?
    Dr. Griffin. That's correct.
    Senator Dorgan. And so, you will not replace the $545 
million that was requested in 2007, because we're not going to 
have another opportunity on that. We passed a CR at the 2006 
level, and the Chairman is right that we're 5 months into the 
fiscal Year. Seven months remain, but the $545 million comes 
off of the 2007 request, rather than the CR, which embodies the 
2006-level extension. So, you will have lost all of the $545 
million for the fiscal year and not recapture that. I think 
that's your concern.
    Dr. Griffin. That was part of the point I was making.
    Senator Dorgan. What I don't understand is, your loss of 
$545 million from the 2007 request, how that relates to the 
$677 million that you were directed in reductions to human 
spaceflight. Can you explain that to me? Because I don't 
understand that.
    Dr. Griffin. I can best illustrate by saying what I 
normally would have done if given a reduction in planned 
spending because of a continuing resolution. I would have 
normally apportioned it approximately in accord with the way 
money is spent within the agency. Roughly 60 percent of our 
money is spent on human spaceflight, so I would have taken a 
cut of 60 percent of $545 million and applied it to human 
spaceflight. Thirty-two percent of our money goes to science; I 
would have cut science by 32 percent, and done so in a pro rata 
fashion. I was not provided that flexibility. Other portfolios 
within NASA were either increased or were cut only slightly, 
and the human spaceflight account was decremented quite 
severely to make up for that. So, the cuts were not applied in 
a pro rata fashion according to how we spend the money within 
the agency.
    Senator Hutchison. That language was changed, in the 
continuing resolution, from the Senate-passed bill and the 
authorization that came out of this Committee.
    Senator Dorgan. Let me ask, with respect to the Orion Crew 
Exploration Vehicle, can you tell me the timeline and the 
estimated costs of that project?
    Dr. Griffin. The estimated cost of the project is in the 
$10-billion, 9-point-something--and it was intended to deliver 
human flight-quality hardware not later than 2014. In fact, we 
were aiming for 2014.
    Senator Dorgan. And you indicated, today, you've slipped 
that 6 months?
    Dr. Griffin. With this cut, we will slip 4 to 6 months, on 
an--if nothing else changed, apples-to-apples basis, we'd slip 
4 to 6 months.
    Senator Dorgan. And how many Shuttle flights will occur 
between now and that period of time?
    Dr. Griffin. Well, the Shuttle will be retired in 2010. We 
have about 13-14 flights to go.
    Senator Dorgan. Can I ask you about the Earth science 
portion of your work?
    Dr. Griffin. You are the Senator, and I am the witness. You 
can ask about anything.
    [Laughter.]
    Senator Dorgan. All right, then, let me start each question 
with, ``How do you justify''--no, I won't do that.
    Let me ask you about the science portion of your budget. As 
I indicated, there are many Members of Congress that don't 
offer a home in their home state to the dedicated people in 
your agency, but we're very interested in the opportunity that 
your science programs offer the rest of the country. Give me 
your assessment of that. I know that some of the priorities 
have changed in recent years in NASA, but give me your sense of 
the Earth science programs.
    Dr. Griffin. Well, the science program, as a whole, is an 
extraordinary American accomplishment. It is just 
extraordinary. It is also cooperative, internationally. It's 
one of the best things we do to advance international 
cooperation. Something like two-thirds of our missions have an 
international component, and we are not always the leader; 
sometimes we are the follower, supplying instruments on another 
country's spacecraft. So, overall, our science program is just 
extraordinary.
    Now, with regard to Earth science, we have--and, as I 
mentioned in my opening remarks, we have four major portfolios. 
We have astrophysics, as exemplified by the Hubble Space 
Telescope; planetary science--I think you're familiar with the 
Mars Rovers; heliophysics on space science--you might not be 
familiar with particular missions there, but you might recall 
that, just a few months ago, we launched the STEREO mission, 
which will study the sun from opposing angles around it, and be 
able to get stereoscopic views of it, and help us understand 
coronal mass ejections, which are our key to space weather and 
to electrical interference with Earth; and then, finally, we 
have Earth science. So, we have four portfolios. The Earth 
science portfolio occupies, in Fiscal Year 2008, 27 percent of 
the budget, so just slightly over one-fourth. The Earth science 
portfolio is the section of NASA which is responsible for 
returning all of the information on climate research, which you 
have seen much ballyhooed in the media lately on global 
warming. That is NASA work that has produced that data, and 
we're quite proud of it.
    The Earth science program had fallen on, I would say, 
difficult days, a few years ago. Almost the first thing that I 
did when I returned to the agency--as I think you know, I've 
been with NASA before in my career--almost the first thing I 
did when I returned was to remove a planned increase for the 
robotic Mars program and put that money back into Earth science 
to bring the Earth science portfolio up to the levels that it 
should enjoy, consistent with our other science mission 
portfolios. So, today it's healthy. We have also a very 
recently released Decadal Survey for Earth Sciences. We will 
use that to reshape our planning portfolio in the next few 
years. We have a recently released report from the IPCC on 
their thoroughly scientific assessment of global warming, which 
I think will help to inform the debate.
    So, I'm actually pretty pleased with, and pretty proud of, 
the program. And, you know, I think it's in good shape.
    Senator Dorgan. Well, I want NASA to succeed. And as I 
indicated to you, I feel very strongly that our country needs 
to continue to explore and find the edges of exploration and 
science.
    Let me, finally, ask you one very delicate question. Well, 
you know that NASA was the subject of a 24/7 discussion about 
one instance, a very difficult circumstance with an astronaut, 
a former astronaut. And, frankly, watching all of that on 
television, it's pretty depressing to watch the 24/7 news cycle 
these days--a lot like blackbirds on a telephone wire, one 
flies on; they all fly on, one flies off, they all fly off. And 
in this circumstance, there was a lot of publicity about a 
former NASA astronaut. I watched that, and one of the things 
that I admired is other NASA astronauts came and spoke publicly 
and said, ``We worry about the human being here.'' But having 
mentioned that, is there anything in that circumstance, or 
anything with respect to what you saw and heard, that required 
or urged you to think about any changes in screenings or any 
other aspect of training and seeking astronauts?
    Dr. Griffin. Well, sir, that is exactly what we are looking 
at. The allegations against Captain Nowak are, of course, very 
serious. It's a legal matter. It's in the legal system. I just 
will not address those allegations. But clearly she is in major 
trouble, and clearly we failed, as an institution, to recognize 
that she was very troubled. So, as I speak to you, we are 
looking, with two separate groups, at exactly that issue, as 
well as the issue of prescreening and to continue screening.
    The two groups are drawn, first of all, from across the 
Federal Government from other high-performance, high-stress 
organizations in the military services, from the aeromedical or 
other medical specialists, and then also a second group from 
inside NASA to look at how we support our astronauts. When 
results from those studies become available, you will have 
them.
    Senator Dorgan. All right. I should hasten to say, I don't 
mean to suggest that was not a news story. It clearly was a 
news story, and clearly the charges are serious. But it was 
very high profile, simply because it was an astronaut who had 
recently flown on a mission.
    I thank you for the response. I hope you'll share what you 
have learned, with the Committee, when you learn it.
    Dr. Griffin. We absolutely will. I would like to close that 
particular question by noting that I have known and worked with 
our astronauts for the better part of 30 years, in one capacity 
or another, and they are, of course, highly selected and highly 
filtered, and extremely capable, and extremely conscientious, 
and I don't think one incident should ever be allowed to paint 
a picture for an entire group of people, for any group, and 
certainly not for our astronauts.
    Senator Dorgan. Well, I've met many of them, and they are 
an unbelievable group of American men and women, courageous. 
And we certainly wouldn't want to disparage astronauts in the 
sight of one who's flown here, as well, the Chairman of our 
Subcommittee.
    Let me thank you, Dr. Griffin. And I'm anxious to work with 
you and the folks in NASA to see that you succeed in your 
missions.
    Dr. Griffin. Thank you, Senator Dorgan.
    Senator Nelson. Senator Dorgan, since you are a member of 
the Appropriations Committee, one of the things that maybe you, 
Senator Mikulski, and Senator Hutchison could all explore is 
language that would give additional flexibility, coming up on 
this vehicle that we're going to consider in a couple of weeks 
on moving money from one account to another.
    Dr. Griffin--Senator Hutchison, you want to continue on?
    Senator Hutchison. Yes.
    Senator Nelson. I've got a bunch of questions, and I don't 
want to hold you up.
    Senator Hutchison. OK. Let me ask one.
    Senator Nelson. You go ahead.
    Senator Hutchison. All right, thank you. I just have one, 
and that is the Alpha Magnetic Spectrometer (AMS) that we have 
discussed, that Dr. Sam Ting is working on, both in 
Switzerland, and other countries, and would like to have the 
spectrometer go on the Space Station, because it is his 
contention, as we had heard from him in this very Committee 
last year, that he thinks the study of cosmic rays and the dark 
matter could have a potential impact on our future energy 
sources. And the Department of Energy has, since that hearing 
that we had, validated his contention that it would have a 
strong scientific basis. My question is, since it is not on the 
list of priority pieces of equipment that would be in the last 
of the Shuttles, which I think you've already designated, is 
there any other way that that piece of equipment could be taken 
to the Space Station, perhaps through other agencies or private 
funding? And do you think it would be worth pursuing that for 
the scientific work that could be done once the Space Station 
is completed?
    Dr. Griffin. I'm certainly not able to comment on private 
funding sources or what other agencies can do. I need to stay 
in my running lane. Yes, of course, the Alpha Magnetic 
Spectrometer can be put in space by other means than the 
Shuttle. We've analyzed that problem fairly carefully, and, if 
it were put on an Atlas or Delta EELV, Air Force Expendable 
Vehicle, it would take us about $350 million, we estimate, to 
buy that launch and to outfit it with the necessary automated 
docking mechanisms. The automated docking mechanisms would be 
very similar to what the European ATV or the Japanese HTV will 
use when they dock with the Station. So, certainly it can be 
done, but it's the $350 million. Just as Shuttle flights, 
following Columbia, are now a nonrenewable resource--I have a 
very limited number of Shuttle flights available to finish 
building the Station, and so, I just simply can't add a Shuttle 
flight--so, also, I don't have $350 million to put that payload 
into space by alternate means.
    Senator Hutchison. Is it totally foreclosed that that would 
be able to go up on a Shuttle when you are taking something 
else in this group that you have in the schedule?
    Dr. Griffin. The Alpha Magnetic Spectrometer weighs many 
tons, and we have looked carefully, believe me. The Alpha 
Magnetic Spectrometer flight is one of the many examples of 
collateral damage to the Nation's space program which followed 
the loss of Columbia. It is very visible. I know it is very 
visible to you. But there have been many other things we lost 
as a result of that accident. We are still digging out of that 
hole, leaving entirely aside, of course, the tragedy of losing 
seven crew members. The Alpha Magnetic Spectrometer is one of 
those losses. We have looked very carefully to see whether it 
could be co-manifested with any other piece of Space Station 
hardware, and to go up in that fashion. But, as you know, the 
pieces of Space Station hardware that we have are, themselves, 
large and voluminous. We just can't fit the AMS in with the 
Space Station hardware. Other than the Hubble flight, which 
needs the whole cargo bay--the Hubble servicing mission, 
sorry--needs every bit of payload we can get to get to the 
right altitude--we have no other Shuttle missions available 
that don't take up Space Station hardware. So, all of our 
missions are devoted either to servicing the Hubble or to 
building the Space Station, and all of the ones devoted to 
building the Space Station have too much hardware in the cargo 
bay to put the AMS in. So, we just can't get there from here.
    Senator Hutchison. And there's no outside source that would 
probably consider the $350 million able to be recovered from 
the science?
    Dr. Griffin. I'm not aware of one. Of course, I'm an 
engineer and not a scientist. I know that Dr. Ting has much 
broader connections in the science community than I will ever 
have. And I am told that the science is good science. I'm 
simply not casting any aspersions on it at all. But if no other 
science agency or entity has stepped up to say that they want 
to fund it, then I would assume that they don't think that it 
is capable of being funded.
    The AMS was approved--I know you know this, but, for the 
record, before we lost Columbia, the entire logistical support 
of the Space Station was to be by means of the Shuttle. So, 
there were many Shuttle flights that would go up for crew 
rotation or to bring consumables, which had a lot of extra 
payload capacity. So, in that sense, transport aboard the Space 
Shuttle was a free good. It was a free thing that we could 
offer to worthy payloads. The AMS was one of those. In the 
post-Columbia world, transportation aboard the Shuttle is not a 
free good. It is an extraordinarily limited resource. If we are 
to finish the Space Station in the manner that you spoke of in 
your opening remarks, every Shuttle flight that I have left has 
got to be used for the Station. Then, last year's legislation, 
2006 legislation, made one exception to that, in law--was the 
Hubble servicing mission, directing us to spend $293 million to 
continue with that mission, if it were possible to fly it. As 
you know, I spent a lot of personal time--not just agency time, 
but personal time--involved in the study of whether or not the 
Hubble servicing mission was technically possible, given the 
new rules under which we fly Shuttles. We came to the 
conclusion that it was, and that is the only non-Space Station 
exception, at this point.
    Senator Hutchison. Thank you.
    Thank you, Mr. Chairman.
    Dr. Griffin. Thank you, Senator. And I'm very sorry, but 
that is the answer.
    Senator Nelson. And according to your answer on AMS, the 
same would be true of the Deep Space Climate Observatory?
    Dr. Griffin. You've caught me at a loss. I don't know what 
the Deep Space Climate Observatory is; but, if it was intended 
to go up on a Shuttle, it isn't now.
    Senator Nelson. It was. It was engineered to go in the 
payload bay. In fact, it is a completed spacecraft.
    Dr. Griffin. Oh, I believe you're talking about what used 
to be called Triana.
    Senator Nelson. That's correct.
    Dr. Griffin. I'm sorry. I disconnected on the acronym. 
Excuse me. Yes, sir, if we were to fly DSCOVR, it would have to 
go on an expendable vehicle. There would have to be some 
reengineering done to it, because expendable vehicle loads are 
substantially greater than the Shuttle, as you, of course, 
know. So, it was designed for Shuttle launch. So, the entire 
loads environment would be different. So, there would be money 
to spent there. Then, we would have to buy the expendable 
vehicle. So, I think, there again, you're talking about at 
least a couple of hundred, maybe several hundred million 
dollars to fly that particular spacecraft.
    Senator Nelson. Picking up on Senator Hutchison's comment 
about private entrepreneurs offering a ride, one thing that you 
are looking at is the ability to send crew or cargo to the 
Station during the gap.
    Dr. Griffin. Yes, sir.
    Senator Nelson. Instead of relying just on the Russian 
Soyuz or the European ATV, which, itself, hasn't flown. You 
have this COTS contract, the Commercial Orbital Transportation 
System. Talk to us about that.
    Dr. Griffin. I'm happy to, Senator. That particular effort 
is my initiative, so, if it fails, you'll know where to look.
    The genesis of that effort lies with the observation that, 
over the decades of space development--in contrast to aviation, 
where we had a strong public-private synergy, a lot of private 
money in aviation during the hundred years of its development 
to its present state, and a lot of public money--in space, we 
have pretty much only had public money and public programs, 
civil or defense, but all funded by the American taxpayer. 
We've had relatively little private space development.
    I believe that that fact is responsible for a slower growth 
of space capability than we witnessed in the development of 
aviation. Many private concerns have said that, if the 
government would provide a certain amount of seed money, that 
they could attract other private capital, and that they would 
be able to develop basic space infrastructure--transportation 
to and from low Earth orbit, if the government would provide 
seed capital, they could provide such capability at costs much 
lower than the government could provide.
    I don't think any amongst us would believe the proposition 
that the government is the most efficient provider of goods and 
services. So, if such commercial space capability could be 
brought into being, I think that most of us believe it would be 
more efficient than the government, and, therefore, a good 
deal.
    In my tenure, another of those things that I started very 
early, we set aside some money--about half a billion dollars 
over the 5-year runout--we set aside some money to be used as 
seed money--not enough money for the development of this 
commercial capability, but seed money--to help the winning 
companies attract other capital. We labeled it the Commercial 
Orbital Transportation Services (COTS) program, as you duly 
noted.
    Over the course of the last year or so, we conducted a 
competition among all parties for two funded Space Act 
Agreements. Space Act Agreements fall under the category of 
other transactional authority, like the DOD has in many areas 
for special transactions that are not what you would classify 
as conventional prime contracts or service contracts. They're 
other transactional authority that is granted to NASA in its 
founding legislation. It was determined by our Office of 
General Counsel that the Space Act Agreement was an appropriate 
mechanism to conduct this particular piece of business. We held 
competitions. We found two winners. We have awarded the money 
to the two winners. They are now busily about their business of 
seeking private capital to augment the government capital and 
moving down the road to advance the capability.
    We certainly hope that both will succeed, but this is not 
something over which the government has control. By the very 
nature of an attempt to bring about commercial space 
capability, we must severely restrict our oversight. In fact, 
this whole question of the development of commercial space 
capability comes down to an attempt to answer the question, is 
the American aerospace industrial base capable of developing 
spaceflight hardware without the close oversight of the U.S. 
Government? We have conducted the experiment to know that, with 
the close oversight of the U.S. Government, such capability is 
possible. The question is, can it be done on an arms'-length 
basis? I believe the answer to that is yes, and that is what 
we're doing with the COTS contracts. If one or both are 
successful, in a few years we will be able to transition from 
Space Act Agreements to routine purchases of commercial service 
to low Earth orbit, and that is our hope.
    Senator Nelson. And then, you would have to have the 
government oversight, because it's going to interface with a 
government facility, the Space Station.
    Dr. Griffin. Well, of course. We try to do that through 
appropriate interface requirements. We have published visiting-
vehicle requirements for any vehicle which would wish to dock 
at the Station. We have certain standards on human rating that 
we would apply. But those are known in advance to the companies 
developing the capability. It's not something to be imposed on 
them by surprise at the last moment. I mean, the government has 
standards on commercial aviation, as you well know, Senator. 
So, commercial airplanes are developed with those standards in 
mind. That's exactly what we're doing in the space arena.
    Senator Nelson. If successful, would that be a source of a 
ride for DSCOVR or for AMS?
    Dr. Griffin. I don't know, but I'm initially doubtful, 
because both--well, possibly for DSCOVR, which is of lower 
mass. AMS weighs many tons, and I'm skeptical that that 
particular payload could be carried up. We are talking about a 
couple of tons of cargo for this commercial space capability at 
the entry level, a few tons of cargo. We're talking about being 
able to provide crew rotations for a few people. We're not 
talking about the kind of mass that the AMS has.
    Senator Nelson. But possibly DSCOVR.
    Dr. Griffin. Possibly.
    Senator Nelson. And it would be a lot cheaper than the $350 
million you're talking about to get on an Atlas or a Delta.
    Dr. Griffin. Well, certainly, sir, because if the developed 
commercial capability was not cheaper than what the government 
could do, then we wouldn't purchase it. We won't spend more 
money than is necessary to buy a government capability.
    Senator Nelson. Let's go back to the gap, which you now say 
is going to be early Fiscal Year 2015.
    Dr. Griffin. As we project, today, yes, sir.
    Senator Nelson. So, between October 1, 2014, and sometime 
in the first part of calendar year 2015 is what you're 
projecting.
    Dr. Griffin. That is what I'm projecting.
    Senator Nelson. What do you think is going to be the impact 
upon the work force, both civil servants and contractors?
    Dr. Griffin. I am worried about it. From the end of Fiscal 
Year 2010 until early in Fiscal Year 2015, from the end of one 
Shuttle period to the onset of the Orion and Ares period, our 
human spaceflight expertise will be depleted, to a certain 
extent. In fact, if we kept all the same people onboard that we 
have today on Shuttle, we would obviously save no money, 
because, in the end, all the money goes to pay people to do 
things we want them to do. Even when we buy hardware, we are 
paying other people in other places to make that hardware.
    Now, there would be fewer people involved in the Orion and 
Ares launch systems anyway, because we intend them to cost 
less, and we certainly want to divert some of that talent to 
other enterprises. But when you don't fly for 4 or more years, 
people become stale; the very good people often move into other 
enterprises where there is more action; facilities degrade. 
It's not a good thing. This Nation went through a period like 
that between the end of Apollo and the onset of Shuttle, and it 
was very damaging. I expect it will be damaging again, which is 
why, with you, I have devoted a considerable amount of personal 
energy to minimizing that gap. The funding that we have today 
supports flying in early 2015. That is about the best that I 
can offer you.
    Senator Nelson. Theoretically, that would be 4 years; 
October 2010 until October, November, or December of 2014, 
because that's Fiscal Year 2015.
    Dr. Griffin. Sometime in early 2015 would be 4-plus years.
    Senator Nelson. What are the strategic implications of this 
4-year-plus gap in our Nation's ability to send humans into 
space?
    Dr. Griffin. Assuming that commercial capability does not 
materialize, and that we have only government capability, then 
it would be at least 4 years. Personally--I mean, we--that 
calls for a conclusion of the witness, because we can only 
really assess the strategic impact by looking back on it, not 
looking forward to it. But, as I look forward to it, my 
conclusion is that, first of all, the United States will be, as 
a Nation, in a position of purchasing crew and cargo services 
from other governments--Russia, Europe, Japan--because our 
existing barter arrangements for the Space Station did not ever 
contemplate the lack of availability of the Shuttle. So, we are 
purchasing extra services, which they are not obligated to 
provide. I will tell you that I find it unseemly for the United 
States to be in a position where we must do such a thing.
    Now, we have reached the point where that is the state of 
affairs, and so, my finding it unseemly does not alter that 
fact. But it is a fact. I don't like it. I think it is an 
improper position for the world's leading spacefaring nation to 
be in. Moreover, to be in such a position greatly reduces any 
bargaining power we might have in what is a very limited 
marketplace, so we should not expect the cost of purchasing 
such services to be cheap. The money then spent on purchasing 
such services goes to the aerospace industries of other 
nations, rather than our own.
    That can't cheer anyone up.
    Senator Nelson. No. Why did NASA, to begin with, decide 
that there was going to be a gap until 2014?
    Dr. Griffin. Sir, we have a budget. It is a very good 
budget in any sense that one can assess it in the suite of 
domestic nondefense discretionary programs in the Nation. The 
President's request for NASA is incredibly generous. But the 
money only goes so far, and, as you know we have many legacy 
commitments on Shuttle and Station, which none of us want to 
see abrogated, between now and Fiscal Year 2010, that leaves a 
very limited amount of development money to nurture the new 
systems. The way that development programs work is, for a fixed 
amount of money, the normal development program profile would 
require more money, earlier rather than later. The early years 
for Orion and Ares are exactly the years when we have less 
money. And so, given the fact that we have a generous budget, 
but given the fact that we have legacy commitments between now 
and the end of 2010, we simply do not have the money available 
to provide an early capability for Orion and Ares.
    Senator Nelson. Why don't you, in addition to the figures 
that you're already going to supply to the Committee, supply us 
with the figures that you think would get us back onto a track 
to have it fly in human flight? Because you're going to do 
several unmanned flights prior.
    Dr. Griffin. We will do a couple of unmanned test flights 
prior to putting people onboard, yes, sir.
    Senator Nelson. So, human flight being the target of 2014, 
2013, and 2012.
    Dr. Griffin. So, you want funding requirements to provide 
first human launch in--IOC, we're calling it, Initial 
Operational Capability--you want funding requirements for IOC 
in 2012, 2013, and 2014.
    Senator Nelson. Since you just announced to us that it's 
going to be early Fiscal Year 2015.
    Dr. Griffin. At best, at this point. Yes, sir, we will get 
you those funding requirements.
    [The information referred to follows:]

Assessment of Orion Crew Exploration Vehicle Schedule
    Based on the technical baseline and flight tests planned for the 
Orion Crew Exploration Vehicle and the Ares I Crew Launch Vehicle and 
the current projected budget available for Constellation Systems, 
NASA's estimate for the CEV Initial Operational Capability (IOC) is 
March 2015, with a schedule variance around this IOC date of 
approximately 4 months based on NASA's cost estimates. This CEV IOC 
date assumes that NASA's proposal to terminate certain Exploration 
Systems projects in FY 2007 and the outyears (approximately $630 
million between FY 2007-2011) will be approved, so that we may shore up 
funding for the CEV and CLV. Further, this projected IOC date is based 
on the NASA Exploration Systems budget resources not eroding below the 
current 5-year runout or being re-directed to other activities. Initial 
Operational Capability (IOC) for the Orion and Ares I launch vehicle is 
defined here as the major milestone when test pilot astronauts fly the 
CEV for the first time to the International Space Station to conduct 
full-up testing of the new spacecraft. This is not planned to be a crew 
rotation flight. The second major milestone is Full Operational 
Capability (FOC) when the Orion Crew Exploration Vehicle and Ares I 
Crew Launch Vehicle will transport crew to the International Space 
Station, remain at the Station for up to 180 days, and then safely 
return a crew to Earth. This FOC is projected to occur approximately 1 
year following IOC of the Orion and Ares I.
    NASA was asked to examine how much in budget resources would be 
necessary to meet earlier CEV IOC milestone dates, and the following is 
NASA's estimate of three scenarios based on the assumptions noted 
herein.
    CEV IOC in 2012--Because of earlier decisions in response to 
funding limitations, a CEV IOC milestone is no longer technically 
achievable in 2012. In 2005, in an effort to preserve a 2012 IOC, NASA 
was considering a Block-1 version of the Crew Launch Vehicle, which 
utilized the standard 4-segment Shuttle Reusable Solid Rocket Booster 
(RSRB) and a modified, air-start version of the Space Shuttle Main 
Engine on the second stage. The use of the Block-1 CLV would have 
preserved the 2012 IOC, but at a higher overall life-cycle cost for the 
Constellation Program. NASA planned a later upgrade to a Block-2 CLV, 
with a 5-segment RSRB and J-2X upper stage engine, both of which are 
essential elements for the lunar Cargo Lift Vehicle (CaLV), but which 
could not be available for use in 2012. The use of these common 
elements across the architecture minimizes life-cycle cost. By late 
2005, because of funding reductions to the Constellation Program to 
support the Space Shuttle and the International Space Station, it 
became clear that funds to support development of CEV and CLV by 2012 
would not be available. Thus, in order to minimize life-cycle cost, in 
early 2006 NASA chose to proceed directly to the J-2X upper stage and 
5-segment RSRB, which again are common to both the CLV and CaLV. In 
order to develop and test these components of the CLV, the earliest 
technically achievable CEV IOC milestone is June 2013.
    CEV IOC in 2013--In order to meet a CEV IOC of September 2013, NASA 
would require additional funding in Fiscal Years 2008-2010 to meet that 
IOC schedule with a 65 percent cost confidence level in our budgeting. 
The ideal time-phasing of such funds would be approximately $400 
million in FY 2008 and an additional $1.6 billion in FY 2009-2010. The 
schedule variance around the September 2013 IOC date is approximately 4 
months, based on NASA's cost estimates.
    CEV IOC in 2014--In order to meet a CEV IOC of September 2014, NASA 
would require additional funds in Fiscal Years 2008-2010 to meet that 
IOC schedule with a 65 percent cost confidence level in our budgeting. 
The ideal time-phasing of such funds would be approximately $350 
million in FY 2009 and an additional $400 million in FY 2010, though 
funding from FY 2008 may be obligated in FY 2008-2009 to the CEV and 
CLV development. The schedule variance around the September 2014 IOC 
date is approximately 4 months, based on NASA's cost estimates.

    Senator Nelson. OK. Is the Administration's FY 2008 budget 
request sufficient to support full implementation of the 
missions recommended by the National Academy's decadal survey 
in Earth science?
    Dr. Griffin. On what time-scale, sir? I want to be very 
clear with the addition of Earth sciences to this practice, we 
now obtain, from the National Academy of Sciences, decadal 
surveys in all of our four portfolios. I'm very pleased about 
that. I was one of the people requesting such a decadal from 
the Earth science community. Now, we never have had enough 
money to do all of the missions in any of the decadals. So, 
practically speaking, we have missions in the flow in any of 
those areas to address the top two or three or four missions. 
We absolutely will prioritize our money in Earth science to 
address the decadal survey priorities in Earth science, but we 
will never have enough money to address all of the priorities 
for Earth science.
    Senator Nelson. Is it correct that in order to meet their 
recommendations, it was basically about $2 billion annually?
    Dr. Griffin. I don't know. I would have to get back to you 
on that.
    [The information referred to follows:]

    According to the Decadal Survey, the authors believed that the 
program they recommended could be substantially accomplished for a 
total NASA Earth science annual budget of $2 billion in constant FY 
2007 dollars. We are using the detailed cost and programmatic expertise 
available to NASA to examine whether all of the technical challenges 
and implementation costs associated with their recommended program were 
captured in this figure.
    From Earth Science and Applications from Space: National 
Imperatives for the Next Decade and Beyond: ``The overall cost to 
implement the recommended NASA program ($7 billion over twelve years 
for the 15 missions) is estimated to exceed currently projected program 
resources.'' The report also states that ``The committee sees the need 
for a rapid growth in the NASA Earth Science budget from approximately 
$1.5 billion per year to $2 billion per year beginning in 2008 and 
ending no later than 2010.''
    NASA is embarking on an aggressive series of concept studies, to 
look carefully at the notional missions that were endorsed, especially 
the early, highest-priority ones from the Decadal Survey. The 
objectives of these studies are to understand the technological 
challenges inherent in getting the measurements that were identified by 
the Decadal Survey, and the full costs of these missions including the 
launch vehicle and especially also the science and the validation. We 
expect that in 6 months, we will have relatively accurate estimates of 
the full costs of those missions.

    Dr. Griffin. I think there was a strong feeling among those 
of us who looked at it, that the projected cost of those 
missions in the decadal was substantially underestimated, a 
not-uncommon practice, by the way. When we get a decadal 
survey, we pay great attention to the priority order. Frankly, 
the National Academies of Sciences is not the best body to 
estimate what the cost of those missions is likely to be, and, 
in fact, the track record of history would indicate that they 
are among the least qualified bodies to estimate what the cost 
of those missions would be.
    Senator Nelson. In other words, you're saying that they 
underestimate the cost.
    Dr. Griffin. Correct.
    So, we respect their priorities. We do not necessarily 
believe the funding estimates they provide.
    Senator Nelson. But the White House's budget goes the other 
way, because they are estimating this to be at $2 billion for 
each year, and the President's budget requests 1\1/2\ billion 
dollars.
    Dr. Griffin. That's correct, sir. Each of the other 
scientific portfolios which we have would also request more 
money for their portfolio than is available. Again, science--I 
must remind the Committee, science today is funded at a 
historic high within NASA. It is 32 percent of our overall 
funding for FY 2008, the President is requesting five and a 
half billion dollars. That is a historic high in both 
categories. Earth science is getting 27 percent of--more than 
one-fourth--of a science mission directorate with four major 
portfolios. So, unless the Nation chooses to allocate 
substantially more money to NASA, and substantially more money 
to science, Earth science is getting its share and a little bit 
more.
    Senator Nelson. All right. Let's talk about another 
program, NPOESS. This was polar orbiting satellites that are 
run by NOAA and the Air Force with NASA's participation. What 
are we going to do to recover the client measurement 
capabilities lost from NPOESS due to Nunn-McCurdy?
    Dr. Griffin. Well, we will be relying on the NPP, the 
NPOESS Preparatory Project. We have the Landsat Data Continuity 
Mission, which will fly. Frankly, we are going to have to look 
at other missions in the future to make up for the descoping of 
NPOESS following the Nunn-McCurdy breach. So, we have some 
scrambling to do, to make up for the loss of climate research 
from NPOESS.
    Senator Nelson. Can you fly some of those instruments on 
other satellites?
    Dr. Griffin. Well, of course, the instruments, sir, don't 
exist, so, can we fly instruments that would accomplish what 
those instruments would have accomplished on other satellites? 
Yes. But, of course, that represents a funding requirement that 
we don't have.
    Senator Nelson. All right. Let me ask you something that 
you can easily answer. And I'll state, preparatory to my 
question to you, thank you for what you've done in the agency 
in stopping this muzzling of scientists. Can you give assurance 
to the Committee that the actions that you have taken, and the 
policies that you've implemented to make sure there's free flow 
of communication of scientific information from the NASA 
scientists, that those policies and procedures are in place?
    Dr. Griffin. Yes, sir, I can. I think people have, on many 
occasions, stated that the technical and scientific 
communication policy that we have outlined for the agency--
people have stated that they believe it should be a model. I'm 
quite proud of it. We place no restrictions on what people say. 
In fact, looking back in the past, I'm not able to find cases 
where we did. But, leaving aside the interpretation of history 
by disputing parties, I can assure you that we are absolutely 
not, and will not, restrict the ability of anybody working at 
NASA to express their technical opinion.
    Senator Nelson. I want to thank you, personally, for what 
you've done to try to straighten that out.
    Let's go back to the Space Station. Yesterday, the Space 
Station Independent Safety Task Force released a report with 
the following recommendation: ``The International Space Station 
program should place the highest priority on options to 
decrease the risk of micrometeoroid and orbital debris.'' Tell 
us about this, given the fact that, much to the chagrin of a 
lot of folks, the Chinese have just put a bunch of debris up 
there with their ASAT test.
    Dr. Griffin. Yes, sir. Well, certainly, we agree with the 
recommendation. That was a very good committee, and, in 
general, we are in consonance with their recommendations. With 
regard to debris, let me put some numbers on it. This is a 
nice, round number, but it's approximately right. Each day, 
there is about a 1-in-100,000 chance that the International 
Space Station will be fatally damaged by a piece of orbital 
debris. You will appreciate that that's not a large risk, but 
it is substantial; and, of course, it adds up over time. We do 
fly specific orientations of the Station intended to minimize 
such concerns. We have, in the past, done collision-avoidance 
maneuvers when a particular piece of debris catalogued on radar 
tracking posed a threat. So, we do pay attention to orbital 
debris, quite carefully.
    The Chinese ASAT test temporarily just about doubled that 
risk. So, a daily risk of 1-in-100,000 went, for--we can argue 
about the time period--let me just say, a couple of weeks. So, 
for a few weeks, the Chinese ASAT test approximately doubled 
that risk. Now, we, at NASA, have, I will say with some pride, 
the best orbital-debris analysts in the world. It happens to be 
a subject I know more than a passing amount about. I have asked 
them about all that. Our current debris risk from the Chinese 
ASAT test has now, at this point, receded into the background. 
The longer-term effects of the Chinese ASAT test are now 
indistinguishable from the 1-in-100,000 background level that 
we have. At this point, I cannot sit here and say, technically, 
that that is a concern anymore. The period of concern has 
abated. Certainly, any addition to the orbital-debris 
environment by any nation for any reason is not to be 
countenanced. It's something we don't want to do. There has 
been for 20, and more, years, considerable activity through 
multinational bodies, including the United Nations, seeking to 
control and mitigate debris. We want that to continue. We, at 
NASA, are a major part of such discussions. But currently, the 
specific test to which you refer, the threat from that test has 
receded.
    Senator Nelson. Well, the Chinese are going to hear that, 
and they're going to say, ``Well, see? We haven't appreciably 
added to the problem.'' But, in fact, with all that debris, as 
a result of the Chinese ASAT collision with an old Chinese 
weather satellite, as it descends how does that, over time, how 
does that lessen the doubling of that probability of a strike?
    Dr. Griffin. Because the debris is greatly dispersed 
throughout low orbital space. The debris is most threatening to 
the Station or a Shuttle or an EVA astronaut when it is 
concentrated immediately after the test. If we get through that 
initial more dangerous period, and it has time to disperse, as 
it naturally does, then it becomes statistically much less of a 
threat. I don't want my remarks to be interpreted as a ho-hum, 
that it's OK to create debris. In fact, I specifically said 
that we don't want to create debris, and we, at NASA, are part 
of multinational coordinating bodies to prevent exactly that. 
But with regard to the specific test that you cite, I have to 
tell the technical truth, as best we can tell, the immediate 
post-tests effects of debris--we got by those effects, and the 
situation has now receded to the point where the Chinese debris 
has retreated into the background with the other debris.
    Senator Nelson. Isn't it true, with those additional 
thousands of pieces of debris in orbit, that fuel will have to 
be expended in order to have some way of maneuvering out of the 
way of some of those pieces that you're tracking?
    Dr. Griffin. That could happen. We have done it before, for 
other pieces of debris, and it could happen again.
    Senator Nelson. And that could happen on all the weather 
satellites and other surveillance satellites that are up in 
orbit, owned by many nations.
    Dr. Griffin. Certainly. Absolutely, sir. That is a primary 
reason why we seek to mitigate the critic--to mitigate the 
creation of any additional debris.
    Senator Nelson. Do you know, from your present tracking of 
the debris, when that maneuvering might have to occur?
    Dr. Griffin. We don't project any immediate need to do so. 
But our ability to project out more than, you know, weeks and 
months at a time is severely limited. It is not knowable in 
advance, which is why we continue to track--because we wish to 
avoid an unpleasant surprise.
    Senator Nelson. NASA's outside auditors have been unable to 
certify NASA's financial statements. And you now have this new 
accounting system, and there are continuing reports of problems 
at the field centers with the new accounting system. What are 
you proposing to try to straighten this out?
    Dr. Griffin. I would want to distinguish between our new 
accounting rules, which have been welcomed by everybody, and 
the problems with our audit and finance, which is looked upon 
favorably by nobody. We are still, overall, red from our 
auditors. We have made strides. We have hugely improved the 
issue we once had of funds balance with the Treasury. We've 
hugely improved our auditing of environmental funds and 
environmental cleanup and all of that. It has been said that we 
are now in a green, yellow, and red scale, we've moved out of 
red, we're in yellow, and we're headed for green in those 
areas. So, that's good news.
    We've made great strides in creating a single agency-wide 
accounting system with all ten centers, plus headquarters, 
operating on the same rules of the road. That is software 
development work in process by the contractor, but it is going 
well.
    Where we are still deficient is in property management. In 
the old days, there was far less accounting for the disposition 
of property than one would prefer. It is nearly impossible to 
go back and historically fix that. So, our effort is being put 
on correctly cataloguing and locating, knowing the disposition 
of all property which is coming into the agency, and which will 
come into the agency.
    Our own Audit and Finance Committee on our Advisory Council 
recently quizzed our auditors on exactly those same points. I 
think, what might only be characterized as a fulsome 
discussion, and they agreed that we have a good ways to go. 
We're looking at 2009 as being a point by which time you would 
be able to look at it and see considerable improvement.
    Senator Nelson. Do you think that NASA will pass its audits 
this year?
    Dr. Griffin. No.
    Senator Nelson. So, it's 2009.
    Dr. Griffin. FY 2009 is what we're shooting for, best case.
    Senator Nelson. Back to the question of the gap, because 
this is obviously going to be the news item that comes out of 
this hearing today. I want to point out to those that are 
listening that the Administrator has said early Fiscal Year 
2015, which could be at the end of calendar year 2014.
    Dr. Griffin. December 2014 would be the very best case 
we're looking at right now.
    Senator Nelson. Of 2014.
    Dr. Griffin. Correct, which is early Fiscal Year 2015. That 
would be the very best we're looking at. When money is 
extracted from the program, either there needs to be less 
content or the dates will slip.
    Senator Nelson. I have another question, though.
    Dr. Griffin. Yes, sir.
    Senator Nelson. And that is that you are going to pick up 
some efficiencies by virtue of the fact that your selection of 
the contractor for the CEV is going to have some savings and 
efficiencies by doing a number of the assemblies of the new CEV 
there at the Kennedy Space Center. That should lessen some of 
the impact on that work force there.
    Dr. Griffin. Yes, Lockheed Martin, the winning contractor 
for the Orion CEV, did, as part of their proposal, that 
proposal was made, subject to the assumption that they would be 
doing assembly in Florida. As I think you know, we, just within 
the last few weeks, turned what we call the O&C building, the 
Operations and Checkout building on Kennedy Space Center, which 
was used for Shuttle processing--we just recently turned that 
over to Orion processing, that was a real milestone for us. 
We're building a new vehicle for the first time now in decades. 
That certainly will help the workforce around the Kennedy Space 
Center, as it was designed to do.
    There are, however, no increased efficiencies in that move 
which are going to help with the calendar slippage, because the 
Lockheed bid was provided, subject to the assumption--they had 
already factored into their bid the fact of assembly in 
Florida, so there's no additional efficiency to be obtained 
over that which they provided in their winning bid.
    Senator Nelson. But there are jobs that will be provided 
that otherwise wouldn't have had the selection of that 
particular contractor not been made.
    Dr. Griffin. Absolutely.
    Senator Nelson. OK. Now, the President's Council on 
Integrity and Efficiency has just sent you a report on the 
conduct of the NASA inspector general. When will you brief this 
Committee on the results of that investigation and your 
proposed corrective actions?
    Dr. Griffin. When the investigation is complete, sir. There 
is a very formal process through which we must work, in which I 
must work. We are at the stage of that process where they have 
provided to me the assessment of the Integrity Committee. I am 
now required to assess that report and to propose corrective 
actions. Those corrective actions go back to the White House 
and to the chairman of the Integrity Committee, and they are 
then forwarded to that Integrity Committee for their assessment 
and comment. When that process is complete, a redacted--meaning 
personal information has been extracted--a redacted version of 
the report can be made available to the Congress.
    Senator Nelson. It seems that that language that sets up 
the process you just described is a little vague. And this 
Committee is quite interested in receiving that report, and 
receiving it in a timely fashion.
    Dr. Griffin. Yes, sir.
    Senator Nelson. Although this is not something that's in 
your hands, because you've just stated the process, you have 60 
or 90 days with which to review this thing before you send it 
back, under the present procedures. This Committee isn't going 
to wait around very long, because of information that we have 
received ex parte about the subject of this investigation. I 
would encourage you to move with deliberate speed so that we 
can see, and the people's representatives on this Committee can 
do our own examination, by receiving that report. If that thing 
gets drug out, we're going to have to do our own investigation.
    Dr. Griffin. I understand, sir. I have, actually, 30 days, 
with the possibility of a 30-day extension. I am trying to, and 
fully intend to, return my proposed corrective actions within 
the 30-day period. Then, they will, as I say, go back to the 
White House for appropriate disposition under the executive 
order dealing with the Integrity Committee.
    I do not have it within my power to decide to release the 
report to you. I do have it within my power to expedite my 
handling of the report. And I am doing that.
    Senator Nelson. And we thank you for that, Dr. Griffin. 
It's been a rather detailed and extensive hearing, and we 
appreciate your expertise.
    The meeting is adjourned.
    [Whereupon, at 4:12 p.m., the hearing was adjourned.]

                            A P P E N D I X

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii

    The National Aeronautics and Space Administration's missions are 
vital and important to our understanding of the Universe and to 
improving our existence on Earth.
    NASA's dilemma is deciding which exciting projects to tackle first. 
The agency must maintain its strong legacy in science, aeronautics, 
education, and human spaceflight while preparing for the future through 
recapitalizing the human spaceflight program with new vehicles, and 
longer flights.
    Whether we are talking about the International Space Station or the 
Moon, the biggest challenge is getting there and returning home safely. 
I look forward to hearing more about the planning and development 
activities that NASA is undertaking to ensure a smooth transition from 
the Space Shuttle to the Orion and Ares, along with associated cargo 
systems.
    We also must keep the commitments we have made to our international 
partners, particularly Japan and Europe. The international community is 
relying on the United States to honor its commitments to the Space 
Station program. Those commitments are not only for assembly but also 
for utilization. We cannot achieve our plans for exploration of the 
Solar System if we go it alone, and our performance today will impact 
our ability to recruit partners for the future.
    Ultimately, the Nation and this Congress choose to invest in a 
space program not because we dream of far off planets but because we 
want to leave Earth a better place to live. Beyond the spin-off 
technology that the space program has developed, NASA satellites help 
us understand the Earth's changing climate and its impact on humans. 
While the agency restored some funding to Earth science in the 
President's FY 2008 budget request, I am dismayed that the request 
significantly cuts NASA's investment in the interagency Climate Change 
Science Program.
    I look forward to examining these issues today along with the 
Subcommittee's new Chair, Senator Bill Nelson, who knows first hand of 
NASA's importance to U.S. technological leadership and competitiveness.

                                  <all>

</pre></body></html>
